<html>
<title> - THE TERRORIST DIASPORA: AFTER THE FALL OF THE CALIPHATE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





 
        THE TERRORIST DIASPORA: AFTER THE FALL OF THE CALIPHATE

=======================================================================

                                HEARING

                               before the

                         TASK FORCE ON DENYING
                            TERRORISTS ENTRY
                          TO THE UNITED STATES

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 13, 2017

                               __________

                           Serial No. 115-22

                               __________

       Printed for the use of the Committee on Homeland Security
       
       
                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________
                               
                    U.S. GOVERNMENT PUBLISHING OFFICE
                   
 27-976 PDF                WASHINGTON : 2018       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                                 
                               
                               
                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Sheila Jackson Lee, Texas
Mike Rogers, Alabama                 James R. Langevin, Rhode Island
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
John Katko, New York                 Bonnie Watson Coleman, New Jersey
Will Hurd, Texas                     Kathleen M. Rice, New York
Martha McSally, Arizona              J. Luis Correa, California
John Ratcliffe, Texas                Val Butler Demings, Florida
Daniel M. Donovan, Jr., New York     Nanette Diaz Barragan, California
Mike Gallagher, Wisconsin
Clay Higgins, Louisiana
John H. Rutherford, Florida
Thomas A. Garrett, Jr., Virginia
Brian K. Fitzpatrick, Pennsylvania
                   Brendan P. Shields, Staff Director
             Kathleen Crooks Flynn,  Deputy General Counsel
                    Michael S. Twinchek, Chief Clerk
                  Hope Goins, Minority Staff Director
                                 ------                                

      TASK FORCE ON DENYING TERRORISTS ENTRY TO THE UNITED STATES

                  Mike Gallagher, Wisconsin, Chairman
Clay Higgins, Louisiana              Bonnie Watson Coleman, New Jersey
John H. Rutherford, Florida          Sheila Jackson Lee, Texas
Thomas A. Garrett, Jr., Virginia     Nanette Diaz Barragan, California
Brian K. Fitzpatrick, Pennsylvania   Bennie G. Thompson, Mississippi 
John Katko, New York (ex officio)        (ex officio)
Michael T. McCaul, Texas (ex 
    officio)
    
    
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Mike Gallagher, a Representative in Congress From 
  the State of Wisconsin, and Chairman, Task Force on Denying 
  Terrorists Entry to the United States:
  Oral Statement.................................................     1
  Prepared Statement.............................................     1
The Honorable Bonnie Watson Coleman, a Representative in Congress 
  From the State of New Jersey, and Ranking Member, Task Force on 
  Denying Terrorists Entry to the United States:
  Prepared Statement.............................................     2
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     3
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Prepared Statement.............................................     4

                               Witnesses

Mr. Thomas Joscelyn, Senior Fellow, Foundation for Defense of 
  Democracies:
  Oral Statement.................................................     5
  Prepared Statement.............................................     7
Mr. Robin Simcox, Margaret Thatcher Fellow, The Heritage 
  Foundation:
  Oral Statement.................................................    12
  Prepared Statement.............................................    13
Mr. Colin P. Clarke, Political Scientist, The Rand Corporation:
  Oral Statement.................................................    15
  Prepared Statement.............................................    17

                                Appendix

Questions From Chairman Mike Gallagher for Thomas Joscelyn.......    41
Questions From Chairman Mike Gallagher for Robin Simcox..........    41
Questions From Chairman Mike Gallagher for Colin P. Clarke.......    43


        THE TERRORIST DIASPORA: AFTER THE FALL OF THE CALIPHATE

                              ----------                              


                        Thursday, July 13, 2017

             U.S. House of Representatives,
                    Committee on Homeland Security,
                          Task Force on Denying Terrorists 
                                Entry to the United States,
                                                    Washington, DC.
    The task force met, pursuant to notice, at 3:31 p.m., in 
Room HVC-210, Capitol Visitor Center, Hon. Mike Gallagher 
[Chairman of the task force] presiding.
    Present: Representatives Gallagher, Higgins, Rutherford, 
Garrett, Fitzpatrick, Katko, Watson Coleman, Jackson Lee, and 
Barragan.
    Mr. Gallagher. The Committee on Homeland Security Task 
Force on Denying Terrorists Entry into the United States will 
come to order. First of all, thank you all for being so 
patient.
    Oftentimes you have to vote in Congress, and that can screw 
up our best-laid plans. So we really appreciate you sticking 
with us. This is an important topic, and we want to make sure 
we cover it as thoroughly as possible.
    We are meeting today to examine the current terror threat 
landscape, how the terrorist diaspora will affect the security 
of the homeland, and what additional measures the United States 
can take to mitigate the threat.
    In the interest of time, the Ranking Member and I have 
agreed to submit our opening statements for the record.
    Without objection, so ordered. OK.
    [The statements of Chairman Gallagher and Ranking Member 
Watson Coleman follow:]
                  Statement of Chairman Mike Gallagher
                             July 13, 2017
    Reports from the Middle East's conflict zones contain the positive 
news of U.S. and allied forces' successes in Syria and Iraq. In the 
past week, U.S.-backed forces in Syria have breached the wall around 
Raqqa's Old City, marking a major advance in the months-long battle to 
drive the Islamic State out of its self-declared capital. In Iraq this 
week, Prime Minister Abadi arrived in Mosul to formally declare victory 
after Iraqi troops fought back a fierce resistance from the Islamic 
State, literally fighting meter by meter, to gain control of the city.
    Looming over news of victory are questions about the road ahead. 
Today, jihadi fighters are fleeing to other towns, concealing 
themselves among locals, and joining affiliates in places like Egypt, 
Libya, Yemen, Afghanistan, Nigeria, and the Philippines. A New York 
Times correspondent reported from Mosul that the recovered bodies of 
ISIS fighters are primarily from the Caucasus, leaving locals to 
believe that Iraqi fighters have been shaving their beards, blending 
into the population, and fleeing with groups of refugees. Nor is the 
fighting over. ISIS still retains much of Al Anbar Province in Iraq and 
the Euphrates River valley in Syria. When I left Al Anbar in 2008, the 
neighborhoods were safe enough to walk around without body armor. My 
unit and I were fortunate enough to hand out soccer balls and school 
supplies to Iraqi children who were starting school and finally living 
in a safer area and free from terror. Within 7 years, that province was 
under ISIS' control.
    Western Europe, with its access to the United States, has been a 
particularly concerning source of foreign fighters. Secretary Kelly 
recently described as many as 10,000 European citizens that went to 
take part in the region's sectarian struggle. While many of those who 
went to fight are now dead, there are numerous fighters now seeking to 
return home. The New York Times reported that between 100 and 250 
ideologically-driven foreigners are thought to have been smuggled into 
Europe between 2014 and mid-2016, nearly all through Turkey. These 
returning fighters pose a greater threat to the West than ever before. 
They have learned to make IEDs in many forms, deploy drones that can 
drop grenades, and engage in combat with a range of deadly weapons, 
including low-tech weaponry like vehicles. And they can use this 
knowledge to train a younger generation of Western citizens susceptible 
to radicalization.
    Europe has had to bear the brunt of the so-called Caliphate's 
collapse. Facing the return of these jihadists, Europe has increased 
its defenses in many ways, including through increased intelligence 
collection and sharing, more programs to vet and screen travelers, and 
enhanced border security.
    The question is whether these improvements are enough in light of 
today's grave threat. Authorities have not been able to identify all 
returnees, some of whom have sophisticated false documents. Patchwork 
screening and inconsistent border checks have allowed jihadists to 
hatch plots and hide from police by moving between European states. 
Additionally, limited intelligence sharing and unheeded warnings 
between the European Union's member states allows plotters to slip 
through the nets of law enforcement.
    This task force's primary concern is the degree to which jihadists 
threaten the homeland. The United States also faces a threat from 
returning foreign fighters. Our Visa Waiver Program, which allows 
European citizens to travel to the United States without a visa and 
with less screening, does provide an opportunity for determined 
terrorists to exploit.
    The United States and Europe's close relationship, based on a 
common history, shared values, and dependent economies, means that we 
must ensure the safety of travel across the Atlantic without disturbing 
tourist and commercial activity. The solution lies in our ability to 
quickly and effectively vet and screen travelers, gain sufficient 
intelligence from our allies, and act on credible threats when 
identified.
    This task force was established to determine the threat that 
jihadists and returning foreign fighters pose to the homeland and our 
ability to meet that threat through the Department of Homeland 
Security's vetting and screening infrastructure.
    I look forward to hearing from our expert witnesses on the current 
threat and commensurate U.S. defenses. I thank the witnesses for being 
here and for the research they are conducting at Foundation for Defense 
of Democracies, the Heritage Foundation, and the Rand Corporation, 
which has informed lawmakers and the Executive branch on this critical 
topic.
                                 ______
                                 
           Statement of Ranking Member Bonnie Watson Coleman
                             July 13, 2017
    Tens of thousands of foreign fighters from countries around the 
globe have traveled to Iraq and Syria to engage in the fight on behalf 
of ISIS. The vast majority of these individuals are thought to be from 
Europe, with a far smaller number coming from the United States. Over 
time, many of these fighters have begun to return home, raising 
concerns about the security threat they may pose both to their native 
countries and nations abroad.
    On this task force, we are charged with examining the potential 
threat foreign fighters and other terrorists may pose to the United 
States in particular. Specifically, we are focused on how our 
Government can identify foreign fighters who may seek to travel to this 
country to do us harm and deny them entry.
    This is no easy task, to be sure. Travel to and from the so-called 
caliphate is generally clandestine, and many countries lack either the 
capacity to collect information on their returning citizens or the will 
to share it with our Government.
    Given this challenge, I strongly agree with the testimony of our 
witness, Dr. Clarke, that our first priority in addressing the foreign 
fighter threat should be detection. We must identify returning foreign 
fighters so we can determine which have the intent and means to travel 
to the United States to carry out an attack and focus our efforts to 
deny them entry to this country.
    That, in turn, requires increasing information sharing with partner 
nations and enhancing their capacity to screen potential terrorists. 
This initiative must be done cooperatively, recognizing the sovereignty 
of other nations and their varying laws and technological capacity, 
while underscoring our shared interest in this important goal.
    Unfortunately, I am concerned that the Trump administration's 
travel ban and rhetoric about Muslims as well as alienation of our 
friends in Europe is counterproductive to the kind of multilateral 
cooperation that is necessary. I hope we can overcome these unfortunate 
actions to work cooperatively in the interest of the security of 
America.
    Today, I look forward to hearing the assessment of our witness 
panel about what our Government is currently doing to address the 
threat of returning foreign fighters to the homeland, and what more can 
and should be done.
    Of course, addressing the potential threat posed by returning 
foreign fighters is just one part of securing the homeland. But as 
events continue to unfold in Syria and more fighters return home, 
coinciding with increased attacks in Europe, we must ensure we are 
doing all we can to secure our Nation from this threat.
    I know the Members of this task force are deeply committed to doing 
our part in that effort, on a bipartisan basis, and I am pleased to be 
a part of it.

    Mr. Gallagher. With that, we are lucky--and the other 
Members of the committee are reminded that their statements may 
be submitted for the record as well.
    [The statements of Ranking Member Thompson and Honorable 
Jackson Lee follows:]
             Statement of Ranking Member Bennie G. Thompson
                             July 13, 2017
    This committee has a long history of addressing terrorist travel to 
the United States through its oversight and legislative work. Today's 
task force hearing will address a topic that has been addressed by a 
previous committee task force and subcommittees.
    The rising number of foreign fighters returning from Iraq and Syria 
to Europe, along with increased terrorist attacks in Europe, raises 
concern about the possibility of foreign fighters from Europe or 
elsewhere seeking to enter this country to do us harm.
    Identifying foreign fighters among the millions of legitimate 
travelers to the United States each year is a serious challenge for the 
Department of Homeland Security and other Federal agencies.
    Individuals have become more sophisticated about traveling to the 
so-called caliphate undetected. Many of our foreign partners have 
limited ability to track their returnees and information sharing can be 
a challenge. It is therefore incumbent upon the United States to 
continue to enhance our capacity to identify those who have traveled to 
Iraq and Syria for terrorist purposes and support our partners' 
capacity to do the same.
    It is also imperative that we strengthen information-sharing 
agreements and practices with foreign governments to ensure that they 
are providing information about their returnees who may pose a threat 
to the United States. This effort requires diplomacy and relationship 
building, neither of which have been a strong suit of the Trump 
administration thus far. Oftentimes, putting ``America first'' means 
working with foreign partners rather than alienating them.
    I know the operators at DHS and other Federal agencies have forged 
good working relationships with their foreign counterparts. Perhaps the 
administration at its highest level could take a lesson from them.
    I would also note that 7 months into the Trump presidency, the 
Department of Homeland Security still has numerous vacancies in 
critical leadership positions, including those integral to addressing 
the foreign fighter threat, including commissioner of Customs and 
Border Protection and director of Immigration and Customs Enforcement, 
under secretary for Intelligence and Analysis, and assistant secretary 
for the Office of Policy.
    ``Acting'' agency heads may be career officials with substantial 
expertise, but they are generally not empowered to implement new 
policies and initiatives. The White House needs to ensure the 
Department has confirmed leadership in place to deal with emerging and 
evolving threats like the matter before the Task Force this afternoon.
                                 ______
                                 
               Statement of Honorable Sheila Jackson Lee
                             July 13, 2017
    Chairman Mike Gallagher and Ranking Member Bonnie Watson Coleman 
thank you for leading this task force as we consider the important 
question of ``Denying Terrorists Entry to the United States: Examining 
Visa Security.''
    Today's hearing allows Members of the task force to examine the 
current status of the changes to the terror threat landscape as ISIS 
continues to lose ground in Syria and Iraq and foreign fighters begin 
to return to their home countries.
    I look forward to exploring strategies and policy changes that are 
needed to combat this emerging threat, particularly as it relates to 
the homeland security.
    I welcome today's witnesses:
  <bullet> Mr. Thomas Joscelyn, senior fellow with the Foundation for 
        Defense of Democracies;
  <bullet> Mr. Robin Simcox, Margaret Thatcher fellow, with the 
        Heritage Foundation; and
  <bullet> Dr. Colin P. Clarke (Democratic witness), political 
        scientist, with The RAND Corporation.
    The task force will examine all pathways by which extremists might 
infiltrate the homeland and will seek to identify gaps in U.S. 
Government information-sharing and vetting procedures.
    As for those of us who are senior Members of this committee, we 
understand how important it is to protect the security of our homeland 
from those who would do it harm.
    The purpose of the hearing is to examine the current status of the 
changes to the terror threat landscape as ISIS continues to lose ground 
in Syria and Iraq and foreign fighters begin to return to their home 
countries. Members of the task force will also explore strategies and 
policy changes that are needed to combat this emerging threat, 
particularly as it relates to the homeland. This is also an opportunity 
for the task force to exam how the U.S. Government can address foreign 
fighters who may seek to enter this country.
    Last Congress, I introduced H.R. 48, the ``No Fly For Foreign 
Fighters Act.'' This legislation sought to help keep foreign fighters 
and terrorists from entering our country through an American airport.
    Specifically, the ``No Fly for Foreign Fighters Act'' required the 
director of the Terrorist Screening Center to review the completeness 
of the Terrorist Screening Database and the terrorist watch list 
utilized by the Transportation Security Administration to determine if 
an individual who may seek to board a U.S.-bound or domestic flight, 
and who poses a threat to aviation or national security or a threat of 
terrorism and is known or suspected of being a member of a foreign 
terrorist organization, is included in the database and on such watch 
list.
    The route that the terrorist used on September 11, 2001 was 
commercial aircraft that they turned into improvised explosives that 
killed over 3,000 people, and caused life-changing injuries to hundreds 
of others.
    The efforts to combat terrorism that began as a result of this 
attack.
    As of December 2015, during ISIS' peak, up to 31,000 people from 86 
countries had traveled to Iraq and Syria to fight with ISIS and other 
extremist groups.
    Today, due to the determination and focus of the United States and 
our allies, which include predominantly Muslim nations in the region, 
cooperative intelligence assessments have limited the number of foreign 
fighter recruits entering Syria to as few as 50 per month.
    It is unclear when or if there will ever be an articulable ``fall'' 
of the ``caliphate'' or ending of ISIS, but it is clear that there has 
been and will continue to be a disbanding and subsequent reduction in 
its influence and ability to operate as a terrorist group.
    The lessons we have learned over the past 15 years is that we need 
cooperation and collaboration from Muslim nations to win the war on 
terrorism.
    This is why the Executive Order issued by the President banning 
Muslims from predominately Muslim countries from entering the United 
States was so problematic to the our National interest in combating 
terrorism.
    The action has been:
    (1) denounced by leading National security and foreign policy 
        experts,
    (2) deemed unconstitutional by scores of law professors and other 
        scholars,
    (3) sparked peaceful mass demonstrations across the Nation, and
    (4) opposed by a majority of the American public, and enjoined by 
        at least five Federal district courts before the Supreme Court 
        ruled.
    The court is allowing the ban to go into effect for foreign 
nationals who lack any ``bona fide relationship with any person or 
entity in the United States.''
    The court's unsigned opinion protects the vast majority of people 
seeking to enter the United States to visit a relative, accept a job, 
attend a university, or deliver a speech.
    The court said the ban could not be imposed on anyone who had ``a 
credible claim of a bona fide relationship with a person or entity in 
the United States.''
    What the travel ban did was despoil our relations with these six 
countries, and much of the Muslim world, which sees the ban, rightly, 
as religiously-motivated.
    It also diminishes our stature in the eyes of our allies who are 
taking in tens of thousands of refugees without excuses or complaint.
    So instead of strengthening relations with countries that should be 
our allies and partners in the fight against terrorism, we alienate 
them, inflame sentiment against the United States among their citizens, 
and deprive ourselves of vital intelligence and resources needed to 
fight the root causes of terror.
    According to the Pew Center, about 3 million refugees have been 
resettled in the United States since Congress passed the Refugee Act of 
1980, which created the Federal Refugee Resettlement Program and the 
current National standard for the screening and admission of refugees 
into the country.
    California, Texas, and New York resettled nearly a quarter of all 
refugees in fiscal 2016, together taking 20,738 refugees. Other States 
that received at least 3,000 refugees included Michigan, Ohio, Arizona, 
North Carolina, Washington, Pennsylvania, and Illinois. By contrast, 
Arkansas, the District of Columbia, and Wyoming each resettled fewer 
than 10 refugees. Delaware and Hawaii took in no refugees.
    It is deeply disturbing to me that the President's nominee to be 
the next Attorney General, Sen. Jeff Sessions of Alabama, appears not 
be troubled in the slightest by cavalier rejection of the principle of 
religious liberty implicit in the Executive Order.
    The Committee on Homeland Security is committed to ensure that no 
terrorists will have the opportunity to do such great harm to neither 
the United States nor its people ever again.
    I thank the Members of the task force who will work toward a better 
understanding of the threats posed by terrorist and how this committee 
and Nation may better prepare to repel them.
    I am looking forward to hearing what our witnesses have to say and 
I am sure they have important testimony.

    Mr. Gallagher. We are very pleased to welcome a 
distinguished panel of witnesses before us today on this very, 
very important topic.
    Mr. Thomas Joscelyn, a senior fellow at the Foundation for 
Defense of Democracies, Mr. Robin Simcox, the Margaret Thatcher 
fellow at the Heritage Foundation, and Dr. Colin P. Clarke, 
political scientist at the RAND Corporation. Thank you for 
being here today. The witnesses' full written statements will 
appear in the record.
    The Chair now recognizes Mr. Joscelyn for 5 minutes for an 
opening statement.

  STATEMENT OF THOMAS JOSCELYN, SENIOR FELLOW, FOUNDATION FOR 
                     DEFENSE OF DEMOCRACIES

    Mr. Joscelyn. Well, thank you, Chairman Gallagher and 
Ranking Member Watson Coleman for having me here today. I 
appreciate it--and Members of the committee.
    Mr. Gallagher. Did you turn it on?
    Mr. Joscelyn. I turned it on, yes. What is wrong? I am all 
right. Thank you.
    So just in brief, I will try and keep this very quick. You 
know, there is a lot of talk now with ISIS losing Mosul and the 
push into Raqqa about its impending defeat. I am here to sort-
of basically blow a horn of caution on that.
    I think that ISIS is a very resilient organization. We have 
seen them come back from defeats in the past. I would say, if 
you look at my written testimony, there are some points in 
there I would make very quickly.
    I don't even know that we know how many fighters they have 
left to this day. You know, this is the type of metric which is 
very simple to ask and yet you look back through the U.S. 
Government's pronouncements in terms of ISIS, where at the 
beginning of the air campaign the CIA estimated they had 20,000 
to 30,000 fighters, approximately. U.S. military now says we 
have killed about 70,000 fighters since September 2014.
    So if you go by those metrics it, you know, it looks like 
the U.S. Government is saying that we basically killed more 
than two times the upper-end estimate of what this organization 
had at the beginning of the air campaign. I think that that 
speaks.
    The lesson I draw from that is that probably we do not know 
how many total fighters they have and that with all these sort-
of, you know, pronouncements that we are seeing about their 
defeat in Mosul and pending defeat in Raqqa, be very careful 
because they have enough personnel left to wage insurgency in 
the near future and on-going.
    They are experts at guerilla warfare. They have known this 
is coming. This is not something that they are going to 
disappear overnight at all.
    Second point is that they are now an international 
organization. In November 2014, Abu Bakr al Baghdadi announced 
that his organization now had so-called provinces around the 
world.
    Some of these, as I say in my written testimony, amounted 
to nothing more than just small terror cells. Others 
metastasized or grew into full-scale insurgencies themselves, 
whether they be in Libya where they temporarily captured the 
city of Sirte or as we have seen in the Sinai and a few other 
hotspots.
    So what that means from a terrorist travel perspective is 
there is a lot of focus on Syria and Iraq, but this is not an 
organization that is only located in Syria and Iraq.
    That their membership and their leadership is actually 
dispersed and that they have what is known by the U.S. military 
and U.S. intelligence as external attack planners that are 
outside of Iraq and Syria who are capable of planning attacks 
against the West, including in Libya where some of those plots 
have been detected.
    Another quick point on this is that you will see in my 
written testimony that there was a recent report put out by 
Europol which I think had some very fascinating statistics in 
it.
    That report sort-of highlighted for me the fact that while 
the returnees are an issue from Iraq and Syria and elsewhere 
into Europe and potentially through Europe to here, although 
that is very difficult for them to pull off.
    Although the returnees are an issue from these war zones, 
that actually most of the arrests that take place in Europe 
today are actually of people who were either citizens or 
residents already of European nations.
    So for example, they listed in that report that in 2015 
there were 41 arrests of returnees from Iraq and Syria. In 2016 
there were 22. The total number of arrests in 2015 for jihadi 
terrorism-related incidents or suspected incidents, was 687 and 
in 2016 it was 718.
    In other words, this leads to my next point, the problem 
when it comes to terrorist travel is not just about returnees 
coming back from the battlefields, but we have now, 
unfortunately, a situation where citizens and residents of 
European nations, according to European statistics, are by far 
the more numerous potential threats.
    For travel here that raises the issue of a citizen in the 
United Kingdom or France or somewhere where it is easier for 
them to get on a plane and get here to potentially do damage.
    Finally, and I will just wrap up, every one of these 
hearings I always sort-of always mention al-Qaeda. You already 
had another hearing on al-Qaeda today so I won't belabor the 
point, but al-Qaeda is still very much alive.
    There was a recent plot that was actually announced by the 
Department of Justice on June 29, which I think is very 
important to keep in mind. They announced that after 2 years 
they actually announced this plea deal that this guy entered 
into who was from Ohio.
    He actually had gone off to Syria where he trained for a 
few months and came back. He was sent back here by senior al-
Qaeda operatives in 2014 to establish a cell to launch an 
attack here in the United States.
    This was under the radar. As a counterterrorism nerd who 
studies this stuff very closely, we didn't know about this for, 
you know, a couple years. The Department of Justice announced 
this on June 29.
    To me, it is a lone case. It is an isolated case, but it 
emphasizes the fact that you are not just dealing with ISIS 
returnees or ISIS fighters who are coming abroad and who want 
to come back and do harm. You also still have to worry about 
al-Qaeda. We can talk more about that.
    [The prepared statement of Mr. Joscelyn follows:]
                 Prepared Statement of Thomas Joscelyn
                             July 13, 2017
    Chairman Gallagher, Ranking Member Watson Coleman, and other 
distinguished committee Members, thank you for inviting me to testify 
today concerning foreign fighters and the threat some of them pose to 
the United States and Europe.
    The fall of Mosul and the likely fall of Raqqa won't be the end of 
the Islamic State. The group has already reverted to its insurgent 
roots in some of the areas that have been lost. It also still controls 
some territory. The Islamic State will continue to function as a 
guerrilla army, despite suffering significant losses. In May, the 
Office of the Director of National Intelligence (ODNI) assessed that 
even though it was losing significant ground, the Islamic State ``will 
likely have enough resources and fighters to sustain insurgency 
operations and plan terrorists [sic] attacks in the region and 
internationally'' going forward.\1\ Unfortunately, I think ODNI's 
assessment is accurate for a number of reasons, some of which I outline 
below. I also discuss some hypothetical scenarios, especially with 
respect to returning foreign fighters or other supporters already 
living in Europe or the United States.
---------------------------------------------------------------------------
    \1\ Daniel R. Coats, Director of National Intelligence, Statement 
for the Record, ``Worldwide Threat Assessment of the U.S. Intelligence 
Community,'' Senate Select Committee on Intelligence, May 11, 2017, p. 
21 (https://www.intelligence.senate.gov/sites/default/files/documents/
os-coats-051117.pdf).
---------------------------------------------------------------------------
    Recent history.--The Islamic State's predecessor quickly recovered 
from its losses during the American-led ``surge,'' capitalizing on the 
war in Syria and a politically poisonous environment in Iraq to 
rebound. Indeed, Abu Bakr al Baghdadi's organization grew into an 
international phenomenon by the end of 2014, just 3 years after the 
U.S. withdrawal from Iraq was completed. Baghdadi's men did this while 
defying al-Qaeda's leaders and competing with rival jihadist groups. 
This recent history should give us pause any time we hear rhetoric that 
sounds too optimistic about the end of the Islamic State's caliphate. 
The enterprise has had enough resources at its disposal to challenge 
multiple actors for more than 3 years. There is no question that the 
Islamic State's finances, senior personnel, and other assets have been 
hit hard. But it is premature to say its losses amount to a deathblow.
    Uncertainty regarding size of total membership.--While it is no 
longer at the peak of its power, the Islamic State likely still has 
thousands of dedicated members. We don't even really know how many 
members it has in Iraq and Syria, let alone around the globe. Previous 
U.S. estimates almost certainly undercounted the group's ranks. In 
September 2014, at the beginning of the U.S.-led air campaign, the CIA 
reportedly estimated that the Islamic State could ``muster'' between 
20,000 and 31,500 fighters.\2\ This figure was ``more than three times 
the previous estimates,'' CNN noted.\3\ By December 2016, the U.S. 
military was estimating that 50,000 Islamic State fighters had been 
killed.\4\ By February 2017, U.S. Special Operations command concluded 
that more than 60,000 jihadists had perished.\5\ Two months later, in 
April 2017, the Pentagon reportedly estimated that 70,000 Islamic State 
fighters had been killed.\6\
---------------------------------------------------------------------------
    \2\ Jim Sciutto, Jamie Crawford and Chelsea J. Carter, ``ISIS can 
`muster' between 20,000 and 31,500 fighters, CIA says,'' CNN.com, 
September 12, 2014 (http://www.cnn.com/2014/09/11/world/meast/isis-
syria-iraq/index.html).
    \3\ Ibid.
    \4\ Reuters, ``U.S. estimates 50,000 Islamic State fighters killed 
so far: U.S. official,'' December 8, 2016. (http://mobile.reuters.com/
article/worldNews/idUSKBN13X28N) See also: Ryan Browne, ``US Special 
Ops chief: More than 60,000 ISIS fighters killed,'' CNN.com, February 
15, 2017 (http://www.cnn.com/2017/02/14/politics/isis-60000-fighters-
killed/index.html).
    \5\ Ryan Browne, ``US Special Ops chief: More than 60,000 ISIS 
fighters killed,'' CNN.com, February 15, 2017 (http://www.cnn.com/2017/
02/14/politics/isis-60000-fighters-killed/index.html).
    \6\ Molly Hennessy-Fiske and W.J. Hennigan, ``Civilian casualties 
from airstrikes grow in Iraq and Syria. But few are ever 
investigated,'' Los Angeles Times, April 21, 2017 (http://
www.latimes.com/projects/la-fg-iraq-airstrikes/).
---------------------------------------------------------------------------
    Taken at face value, these figures (beginning with the September 
2014 approximation) would suggest that Abu Bakr al Baghdadi's 
enterprise was able to replace its entire force structure more than two 
times over, while fighting multiple enemies on numerous fronts. This 
is, of course, highly unlikely. Even with its prolific recruiting 
campaign, it would be impossible for any cohesive fighting 
organization, let alone one under the sustained pressure faced by the 
Islamic State, to train, equip and deploy fighters this quickly. It is 
far more likely that the United States never had a good handle on how 
many jihadists are in its ranks and the casualty figures are 
guesstimates. The purpose of citing these figures is not to re-litigate 
the past, but instead to sound a cautionary alarm regarding the near-
future: We likely do not even know how many members the Islamic State 
has in Iraq and Syria today.
    The Islamic State is an international organization.--Since November 
2014, when Abu Bakr al Baghdadi first announced the establishment of 
``provinces'' around the globe, the Islamic State's membership grew 
outside of Iraq and Syria. This further complicates any effort to 
estimate its overall size. Some of these ``provinces'' were nothing 
more than small terror networks, while others evolved into capable 
insurgency organizations in their own right. The Libyan branch of the 
caliphate temporarily controlled the city of Sirte. Although the 
jihadists were ejected from their Mediterranean abode by the end of 
2016, they still have some forces inside the country. Similarly, 
Wilayah Khorasan (or Khorasan province), which represents the 
``caliphate'' in Afghanistan and Pakistan, seized upwards of ten 
districts in Afghanistan as of early 2016, but has since lost ground. 
More recently, jihadists in the Philippines seized much of Marawi, 
hoisting the Islamic State's black banner over the city. Wilayah Sinai 
controls at least some turf, and is able to launch spectacular attacks 
on security forces. It was responsible for downing a Russian airliner 
in October 2015. Other ``provinces'' exist in East Africa, West Africa, 
Yemen, and elsewhere.
    In May, the Office of the Director of National Intelligence (ODNI) 
reported that the so-called caliphate ``is seeking to foster 
interconnectedness among its global branches and networks, align their 
efforts to ISIS's strategy, and withstand counter-ISIS efforts.''\7\ 
Gen. John Nicholson, the commander of U.S. Forces-Afghanistan, has said 
that Wilayah Khorasan went through an ``application process'' and the 
Islamic State mothership provided it with ``advice,'' ``publicity,'' 
and ``some financial support.''\8\ Although it is impossible to judge 
the extent of the Islamic State's cohesion, as much of the data is not 
available, there is at least some connectivity between the group's 
leadership and its ``provinces'' elsewhere. This is best seen on the 
media side, as the organization is particularly adept at disseminating 
messages from around the globe in multiple languages, despite some 
recent hiccups in this regard.
---------------------------------------------------------------------------
    \7\ Daniel R. Coats, Director of National Intelligence, Statement 
for the Record, ``Worldwide Threat Assessment of the U.S. Intelligence 
Community,'' Senate Select Committee on Intelligence, May 11, 2017, p. 
5 (https://www.intelligence.senate.gov/sites/default/files/documents/
os-coats-051117.pdf).
    \8\ Department of Defense Press Briefing by General Nicholson in 
the Pentagon Briefing Room, December 2, 2016 (https://www.defense.gov/
News/Transcripts/Transcript-View/Article/1019029/department-of-defense-
press-briefing-by-general-nicholson-in-the-pentagon-brief/).
---------------------------------------------------------------------------
    While their fortunes may rise or fall at any given time, this 
global network of Islamic State ``provinces'' will remain a formidable 
problem for the foreseeable future. Not only are they capable of 
killing large numbers of people in the countries they operate in, this 
structure also makes tracking international terrorist travel more 
difficult. For instance, counterterrorism officials have tied plots in 
Europe to operatives in Libya.\9\ This indicates that some of the 
Islamic State's ``external plotters,'' who are responsible for 
targeting the West, are not stationed in Iraq and Syria. The U.S.-led 
air campaign has disrupted the Islamic State's ``external operations'' 
capacity by killing a number of jihadists in this wing of the 
organization. But others live.
---------------------------------------------------------------------------
    \9\ Thomas Joscelyn, ``Pentagon: Bombs struck Islamic State's 
`external plotters' in Libya,'' FDD's Long War Journal, January 21, 
2017 (http://www.longwarjournal.org/archives/2017/01/pentagon-bombs-
struck-islamic-states-external-plotters-in-libya.php).
---------------------------------------------------------------------------
    The cult of martyrdom has grown.--A disturbingly large number of 
people are willing to kill themselves for the Islamic State's cause. 
The number of suicide bombings claimed by the so-called caliphate 
dwarfs all other jihadist groups, including al-Qaeda. In 2016, for 
instance, the Islamic State claimed 1,112 ``martyrdom operations'' in 
Iraq and Syria alone.\10\ Through the first 6 months of 2017, the 
organization claimed another 527 such bombings (nearly three-fourths of 
them using vehicle-borne improvised explosive devices, or VBIEDs) in 
those two countries. These figures do not include suicide attacks in 
other nations where Abu Bakr al Baghdadi's loyalists are known to 
operate.
---------------------------------------------------------------------------
    \10\ All of the figures cited in this section are derived from 
infographics produced by the Islamic State's Amaq News Agency. As 
discussed, there are some important caveats to keep in mind when 
evaluating these statistics.
---------------------------------------------------------------------------
    To put the Islamic State's current ``martyrdom operations'' in 
perspective, consider data published by the Washington Post in 
2008.\11\ According to the Post, there were just 54 suicide attacks in 
all of 2001, when al-Qaeda's ``martyrs'' launched the most devastating 
terrorist airline hijackings in history. The Islamic State currently 
eclipses that figure every month in Iraq and Syria, averaging 93 
suicide bombings per month in 2016 and 88 per month so far in 2017. 
Many of these operations are carried out by foreign fighters.
---------------------------------------------------------------------------
    \11\ Washingtonpost.com, ``Suicide Attacks Increase and Spread.'' 
(http://www.washingtonpost.com/wp-dyn/content/graphic/2008/04/18/
GR2008041800293.html?sid=- ST2008041800913).
---------------------------------------------------------------------------
    These suicide bombers have been mainly used to defend Islamic State 
positions, including the city of Mosul, which was one of the self-
declared caliphate's two capitals. For instance, half of the 
``martyrdom operations'' carried out in Iraq and Syria this year (265 
of the 527 claimed) took place in Nineveh province, which is home to 
Mosul. The ``martyrs'' were dispatched with increasing frequency after 
the campaign to retake the city began in October 2016, with 501 claimed 
suicide bombings in and around Mosul between then and the end of June 
2017.
    Some caveats are in order. It is impossible to verify the Islamic 
State's figures with any precision. The fog of war makes all reporting 
spotty and not every suicide bombing attempt is recorded in published 
accounts. Some of the claimed ``martyrdom operations'' likely failed to 
hit their targets, but were counted by the Islamic State as attacks 
anyway. The U.S.-led coalition and Iraqi forces have routinely taken 
out VBIEDs before drivers could reach their mark. Not all ``martyrs'' 
are truly willing recruits. For instance, the Islamic State's figures 
include numerous children who were pressed into service by Baghdadi's 
goons.
    Still, even taking into account these caveats, it is reasonable to 
conclude that the number of people willing to die for the sake of the 
so-called caliphate is disturbingly high--much higher than the number 
of willing martyrs in 2001 or even much more recently. Even though most 
of these people have been deployed in war zones, it is possible that 
more will be used outside of Iraq and Syria if they survive the fight 
and are able to travel to other countries. The Islamic State has 
already had some success in instigating would-be recruits to die for 
its cause in the West after they failed to emigrate to the lands of the 
caliphate. It is certainly possible that more will be sent into Europe 
or the United States in the future.
    Children used in suicide attacks, executions, and other 
operations.--The Islamic State has a robust program, named ``Cubs of 
the Caliphate,'' for indoctrinating children. It is one of the most 
disturbing aspects of the organization's operations. Not only does the 
Islamic State's propaganda frequently feature children attending 
classes, its videos have proudly displayed the jihadists' use of 
children as executioners.
    Earlier this month, for instance, the group's Wilayah Jazirah 
disseminated a video entitled, ``They Left Their Beds Empty.'' Four 
children are shown beheading Islamic State captives. The same 
production is laced with footage of the terrorists responsible for the 
November 2015 Paris attacks, as well as other plots in Europe. Indeed, 
the children are made to reenact some of the same execution scenes that 
the Paris attackers carried out before being deployed. The Islamic 
State's message is clear: A new generation of jihadists is being raised 
to replace those who have fallen, including those who have already 
struck inside Europe.
    The ``Cubs of the Caliphate'' program is not confined to Iraq and 
Syria, but also operates in Afghanistan and elsewhere. This means that 
numerous children who have been indoctrinated in the Islamic State's 
ways will pose a disturbing challenge for authorities going forward. As 
I noted above, some have already been used in ``martyrdom operations'' 
in Iraq and Syria. It is possible that others could be used in a 
similar fashion outside of the group's battlefields, in Europe or the 
United States. One purpose behind making children or adults commit 
heinous acts is to shock their conscience into thinking there is no way 
back, that they have crossed a threshold and there is no return. There 
are no easy answers for how to best deal with this problem.
    Diversity of terrorist plots.--There are legitimate concerns about 
the possibility of well-trained fighters leaving Iraq and Syria for the 
West now that the Islamic State is losing its grip on some of its most 
important locales. We saw the damage that a team of Islamic State 
operatives can do in November 2015, when multiple locations in Paris 
were assaulted. Trained operatives have had a hand in other plots as 
well. This concern was succinctly expressed by EUROPOL in a recent 
report. ``The number of returnees is expected to rise, if IS [Islamic 
State], as seems likely, is defeated militarily or collapses. An 
increasing number of returnees will likely strengthen domestic jihadist 
movements and consequently magnify the threat they pose to the 
EU.''\12\ While a true military defeat will be elusive, the central 
point stated here has merit, even though the number of arrests of 
returnees across Europe has recently declined. According to EUROPOL, 
``[a]rrests for traveling to conflict zones for terrorist purposes . . 
. decreased: From 141 in 2015 to 177 in 2016.'' And there was a similar 
``decrease in numbers of arrests of people returning from the conflict 
zones in Syria and Iraq: From 41 in 2015 to 22 in 2016.''\13\
---------------------------------------------------------------------------
    \12\ EUROPOL, ``EU Terrorism Situation and Trend Report 2017,'' p. 
7 (https://www.europol.europa.eu/activities-services/main-reports/eu-
terrorism-situation-and-trend-report-te-sat-2017).
    \13\ EUROPOL, ``EU Terrorism Situation and Trend Report 2017,'' p. 
10 (https://www.europol.europa.eu/activities-services/main-reports/eu-
terrorism-situation-and-trend-report-te-sat-2017).
---------------------------------------------------------------------------
    However, the overall number of arrests ``related to jihadist 
terrorism'' rose from 687 in 2015 to 718 in 2015, meaning that most of 
these terror-related arrests do not involve returnees.\14\
---------------------------------------------------------------------------
    \14\ Ibid.
---------------------------------------------------------------------------
    Still, returnees and the logistical support networks that 
facilitate travel to Iraq and Syria were prominently represented in 
court cases tried by EUROPOL member states. ``As evidenced in the past 
couple of years, the majority of the verdicts for jihadist terrorism 
concerned offences related to the conflict in Syria and Iraq,'' EUROPOL 
reported in its statistical review for 2016. ``They involved persons 
who had prepared to leave for or have returned from the conflict zone, 
as well as persons who have recruited, indoctrinated, financed or 
facilitated others to travel to Syria and/or Iraq to join the terrorist 
groups fighting there.'' In addition, ``[i]ndividuals and cells 
preparing attacks in Europe and beyond were also brought before 
courts.''\15\
---------------------------------------------------------------------------
    \15\ EUROPOL, ``EU Terrorism Situation and Trend Report 2017,'' p. 
18.
---------------------------------------------------------------------------
    These data show that while the threat posed by returnees is real, 
it is just one part of the overall threat picture. The Islamic State 
has encouraged supporters in the West to lash out in their home 
countries instead of traveling abroad, directed plots via ``remote-
control'' guides, and otherwise inspired individuals to act on their 
own. These tactics often don't require professional terrorists to be 
dispatched from abroad. The Islamic State has also lowered the bar for 
what is considered a successful attack, amplifying concepts first 
espoused by others, especially al-Qaeda. A crude knife or machete 
attack that kills few people is trumpeted as the work of an Islamic 
State ``soldier'' or ``fighter.'' On Bastille Day in Nice, France last 
year, an Islamic State supporter killed more than 80 people simply by 
running them over with a lorry. Other Islamic State supporters have 
utilized this simple technique, repeatedly advocated by Abu Bakr al 
Baghdadi's propagandists, as well.
    However, I would urge caution. While the amateurs or individual 
actors have become more lethal over time, the risk of professionally-
trained jihadists carrying out a mass casualty attack remains distinct. 
On average, the professionals can still do more damage than their 
amateur counterparts--if they are not stopped before-hand. The threat 
to aviation demonstrates the point. In October 2015, the Islamic 
State's Wilayah Sinai downed a Russian airliner, killing all 224 people 
on board. Although the jihadists claim to have used a crude improvised 
explosive device, the plot required that well-placed personnel implant 
it at an optimal location within the aircraft. U.S. officials are 
attempting to stop even more sophisticated devices, built by either the 
Islamic State or al-Qaeda, from being placed on-board flights bound for 
Europe or America. Other professionally-planned attacks could involve 
bombing commuter trains, Mumbai-style sieges, or multi-pronged 
assaults. Therefore, if the professionals are able to evade security 
measures, they could easily kill more people than the average amateur.
    Counterterrorism services in Europe and the United States have 
stopped a number of professional plots through the years. Some of those 
foiled in the past year may have been more serious than realized at the 
time. However, there is a risk that as counterterrorism authorities 
deal with a large number of individual or amateur plots, the 
professional terrorists will be able to find another window of 
opportunity. The various threats posed by the Islamic State have placed 
great strains on our defenses.
    The Islamic State could seek to exploit refugee flows once again. 
``The influx of refugees and migrants to Europe from existing and new 
conflict zones is expected to continue,'' EUROPOL reported in its 
review of 2016. The Islamic State ``has already exploited the flow of 
refugees and migrants to send individuals to Europe to commit acts of 
terrorism, which became evident in the 2015 Paris attacks.'' The so-
called caliphate and ``possibly other jihadist terrorist organizations 
may continue to do so.''\16\ While the overwhelming majority of 
migrants are seeking to better their lives, some will continue to pose 
a terrorist threat. European nations are dealing with this, in part, by 
deploying more ``investigators'' to ``migration hotspots in Greece and 
soon also to Italy.''\17\ These ``guest officers'' will rotate ``at key 
points on the external borders of the European Union to strengthen 
security checks on the inward flows of migrants, in order to identify 
suspected terrorists and criminals, establishing a second line of 
defense.''\18\
---------------------------------------------------------------------------
    \16\ EUROPOL, ``EU Terrorism Situation and Trend Report 2017,'' p. 
6.
    \17\ EUROPOL, ``EU Terrorism Situation and Trend Report 2017,'' p. 
61.
    \18\ Ibid.
---------------------------------------------------------------------------
    This makes it imperative that U.S. authorities share intelligence 
with their European counterparts and receive information in return to 
better track potential threats. The United States has led efforts to 
disrupt the Islamic State's ``external attack'' arm and probably has 
the best intelligence available on its activities. But European nations 
have vital intelligence as well, and only by combining data can 
officials get a better sense of the overall picture. Recent setbacks 
with respect to this intelligence sharing, after details of British 
investigations were leaked in the American press, are troubling. But we 
can hope that these relationships have been repaired, or will be soon.
    It should be noted that would-be jihadists who are already citizens 
of European countries could have an easier route into the United States 
than migrants fleeing the battlefields. It is much easier for a British 
citizen to get on a plane headed for the United States than for an 
Islamic State operative posing as a Syrian refugee to enter the United 
States clandestinely through Europe. Given recent events in the United 
Kingdom, and the overall scale of the jihadist threat inside Britain, 
this makes intelligence sharing on potential terrorists all the more 
crucial. British officials have said that they are investigating 500 
possible plots involving 3,000 people on the ``top list'' of suspects 
at any given time. In addition, 20,000 people have been on the 
counterterrorism radar for one reason or another and are still 
considered potentially problematic.\19\
---------------------------------------------------------------------------
    \19\ BBC, ``General election 2017: Extremist exclusion orders 
`used','' May 28, 2017 (http://www.bbc.com/news/election-2017-
40072251).
---------------------------------------------------------------------------
    Exporting terror know-how.--It is possible that more of the Islamic 
State's terrorist inventions will be exported from abroad into Europe 
or the United States. As the self-declared caliphate sought to defend 
its lands, it devised all sorts of new means for waging war. It 
modified drones with small explosives and built its own small arms, 
rockets, bombs, and the like. Al-Qaeda first started to publish ideas 
for backpack bombs and other IEDs in its on-line manuals. The Islamic 
State has done this as well, but we shouldn't be surprised if some of 
its other inventions migrate out of the war zones. The group could do 
this by publishing technical details in its propaganda, or in-person, 
with experienced operatives carrying this knowledge with them.

    Mr. Gallagher. Thank you, Mr. Joscelyn.
    The Chair now recognizes Mr. Simcox for 5 minutes for an 
opening statement.

   STATEMENT OF ROBIN SIMCOX, MARGARET THATCHER FELLOW, THE 
                      HERITAGE FOUNDATION

    Mr. Simcox. Chairman Gallagher, distinguished Members of 
the committee, thank you for the opportunity to testify here 
today. The views I express during this testimony are my own and 
do not represent the official position of the Heritage 
Foundation.
    My goal this afternoon is to highlight the ways in which 
foreign fighters returning from Syria and Iraq pose a clear 
risk to the West. I will focus particularly on the European 
components of this phenomenon.
    There are three aspects to the threat which I will discuss 
today: The short term, the medium term and the long term. In 
the short term, at least 5,000 to 6,000 Europeans have fought 
alongside ISIS, al-Qaeda, and other Islamist groups in Syria 
and Iraq.
    Some have already been killed in the fighting, and as ISIS' 
caliphate in Iraq and Syria comes under more pressure, yet more 
will be. However, there is also an expectation that many 
foreign fighters will disperse and inevitably some of these 
individuals are going to return to their home countries.
    There could be approximately 1,000 returnees just from the 
United Kingdom, France, and Germany. The risk posed by these 
returning fighters is clear. Members of the cell that committed 
ISIS' attacks in Paris in November 2015, killing 130 and 
wounding 368, had traveled to Syria from Europe, fought and 
trained with ISIS, and then returned to Europe to carry out an 
attack.
    This cell also contained ISIS members who had entered 
Europe from Syria after making false asylum claims. Those 
plugged into the same network then committed the attacks in 
Brussels in March 2016.
    It is worth noting that American citizens were killed in 
both the Paris and Brussels attacks. Clearly the threat is not 
consigned solely to the homeland.
    In the medium term, even if these returning fighters do not 
immediately plan to carry out terrorist attacks in the West, 
that does not mean they are still not detrimental to National 
security. In the United Kingdom--these fighters will not be 
returning into a vacuum. They will be reconnecting with pre-
existing Islamist networks.
    The United Kingdom, for example, has approximately 23,000 
terror suspects on the intelligence radar. Those who fought in 
previous foreign conflicts, such as Afghanistan in the 1980's 
and Bosnia in the 1990's earned gravitas and credibility as 
heroic returning members of the Mujahedeen. This helped propel 
a younger generation toward radicalism.
    Take the example of a British citizen, Babar Ahmad. Ahmad, 
who pleaded guilty to terrorism offenses in the United States 
in 2013 fought in Bosnia in the 1990's and then returned to 
London.
    True he did not commit a terrorist attack there; however, 
he was able to leverage his experience fighting in Bosnia to 
become one of the key radicalizers in the entire country upon 
return. He inspired a younger generation of radicals to take up 
the fight.
    Moving on to the long term, entire families from the West 
move to Syria to live in this caliphate. Furthermore, there 
have been children born in Syria to Western parents.
    So it is not just adults now returning to Europe. It is 
also their children. These children will have at minimum been 
hugely exposed to ISIS' ideology and most likely been 
indoctrinated with it.
    There are almost 500 children currently in Syria with 
connections to France. There are approximately 80 Dutch 
children born in the caliphate and as many as 50 from the 
United Kingdom.
    Europol has warned that ISIS will likely, ``train these 
minors to become the next generation of foreign terrorist 
fighters.'' Knowing how to deal with the potential security 
threat posed by children of hardened ISIS fighters is a major 
long-term problem for Western governments.
    Furthermore, there is already a clear problem on this 
front. My research has demonstrated that by the end of 2016 
there had been 34 ISIS or ISIS-linked plots carried out by 
teens or pre-teens in seven different countries in the West.
    Chairman Gallagher, distinguished Members of the committee, 
the risk that returning foreign fighters pose to the West is 
stark and will continue to be felt for many years to come. 
Countries impacted by this threat must continue to work 
together to mitigate this.
    Thank you for inviting me today, and I look forward to your 
questions.
    [The prepared statement of Mr. Simcox follows:]
                   Prepared Statement of Robin Simcox
                             July 13, 2017
    Chairman Gallagher and distinguished Members of the committee, 
thank you for the opportunity to testify here today.
    My name is Robin Simcox; I am the Margaret Thatcher Fellow at The 
Heritage Foundation. My responsibilities consist of research on 
terrorist groups, particularly those targeting Europe, as well as 
research on intelligence and security policy. These are issues I have 
helped governments across Europe shape their response to for almost 10 
years. I also regularly speak to relevant U.S. Government agencies on 
such matters.
    The views I express in this testimony are my own and do not 
represent the official position of The Heritage Foundation.
    My goal this afternoon is to highlight the ways in which fighters 
returning from Syria and Iraq pose a clear risk to the West. I will 
focus particularly on the European component of this phenomenon.
    There are three aspects to the threat which I will discuss today: 
The short term, medium term, and long term.
                             the short term
    At least 5,000 to 6,000 Europeans have fought alongside ISIS and 
other Islamist groups in Syria and Iraq.\1\ Some have already been 
killed in the fighting, and as ISIS' ``Caliphate'' in Iraq and Syria 
comes under increasing pressure, yet more will be.
---------------------------------------------------------------------------
    \1\ ``More than 6,000 European Jihadists in Syria, EU Official 
Says,'' The Telegraph, April 13, 2015, http://www.telegraph.co.uk/news/
worldnews/middleeast/syria/11531884/More-than-6000-European-jihadists-
in-Syria-EU-official-says.html (accessed June 21, 2017).
---------------------------------------------------------------------------
    However, there is also an expectation that many foreign fighters 
will disperse, and inevitably, some of these individuals will return to 
their home countries. There could be approximately 1,000 returnees just 
from the United Kingdom, France, and Germany.
    The risk posed by these returning fighters is clear. They will have 
fought in the Iraq/Syria conflicts and been trained by ISIS, al-Qaeda, 
or associated groups.
    Indeed, the danger these fighters pose has already been 
demonstrated on the streets of Europe. Members of the cell that 
committed ISIS' attacks in Paris in November 2015--killing 130 and 
wounding 368--had traveled to Syria from Europe, fought and trained 
with ISIS, and then returned to Europe to carry out an attack. This 
cell also contained ISIS members who had entered Europe from Syria 
after making false asylum claims.
    Those plugged into the same network then committed the attacks in 
Brussels in March 2016, which killed 32 and wounded approximately 300.
    It is worth noting that American citizens were killed in both the 
Paris and Brussels attacks. Clearly, the threat to life of American 
lives is not consigned solely to the homeland.
                            the medium term
    Even if these returning fighters do not immediately plan to carry 
out terrorist attacks in the West, that does not mean they are not 
still detrimental to National security. These fighters will not be 
returning into a vacuum; they will be reconnecting with pre-existing 
Islamist networks. The United Kingdom, for example, has approximately 
23,000 terror suspects on the intelligence radar.\2\
---------------------------------------------------------------------------
    \2\ Sean O'Neill, Fiona Hamilton, Fariha Karim, and Gabriella 
Swerling, ``Huge Scale of Terror Threat Revealed: UK Home to 23,000 
Jihadists,'' The Times, May 27, 2017, https://www.thetimes.co.uk/
article/huge-scale-of-terror-threat-revealed-uk-home-to-23-000-
jihadists-3zvn58mhq (accessed June 21, 2017).
---------------------------------------------------------------------------
    How these pre-existing radical networks will treat returning 
fighters from Syria will likely differ on a case-by-case basis. Yet we 
must remember that those who fought in previous foreign conflicts--such 
as Afghanistan in the 1980's and Bosnia in the 1990's--earned gravitas 
and credibility as heroic, returning members of the mujahideen. This 
helped propel a younger generation toward radicalism.
    Take the example of a British citizen, Babar Ahmad. Ahmad, who 
pleaded guilty to terrorism offenses in the United States in 2013, 
fought in Bosnia in the 1990's and then returned to London. True, he 
did not commit a terrorist attack there. However, he was able to 
leverage his experience fighting in Bosnia to become one of the key 
radicalizers in the entire country upon return. He was successful in 
inspiring a younger generation of potential radicals to take up the 
fight.
    This included men such as Saajid Badat, who was drawn into Ahmad's 
circle in South London and then dispatched to Afghanistan to train with 
al-Qaeda.\3\ Badat was assigned by al-Qaeda to be part of the same 
suicide bombing mission as the ``shoe bomber'' Richard Reid. He pleaded 
guilty in a U.K. court concerning his role in this plot in 2005.
---------------------------------------------------------------------------
    \3\ United States v. Adis Medunjanin, March 29, 2012, https://
www.documentcloud.org/documents/1048734-deposition-in-u-s-v-adis-
medunjanin.html (accessed July 6, 2017).
---------------------------------------------------------------------------
                             the long term
    The conflict in Syria has helped ensure that the war with Islamism 
will be a multi-generational one. Entire families from the West, 
including children, moved to Syria to live in the ``Caliphate.'' 
Furthermore, there have been children born in Syria to Western parents 
who may now be attempting to return to Europe. Many will have 
inevitably been indoctrinated with ISIS' ideology.
    To use France as an example: There are almost 500 children 
currently in Syria with connections to France. Approximately 150 such 
children have been born there. There are approximately 80 Dutch 
children born in the ``Caliphate'';\4\ and as many as 50 from the 
United Kingdom.\5\
---------------------------------------------------------------------------
    \4\ Emily Feldman, ``Can ISIS's Indoctrinated Kids Be Saved from a 
Future of Violent Jihad?'' Newsweek, July 6, 2017, http://
www.newsweek.com/2017/07/14/isis-kids-indoctrination-saved-violent-
jihad-632080.html (accessed July 6, 2017).
    \5\ Noman Benotman and Nikita Malik, The Children of Islamic State 
(London: Quilliam, 2016).
---------------------------------------------------------------------------
    How many of these children will end up returning to the West is at 
present unknowable. Yet knowing how to deal with the potential security 
threat from children of hardened ISIS fighters is clearly a major, 
long-term problem for Western governments.
    Europol has warned that ISIS has demonstrated ``that they train 
these minors to become the next generation of foreign terrorist 
fighters'' and that this ``may pose a future security threat to member 
states.''\6\ According to a report from the British counter-extremism 
think tank, Quilliam, ``Boys learn a rigid Islamic State curriculum . . 
. Children churn out memorised verses of the Qur'an and attend 
`Jihadist Training', which includes shooting, weaponry and martial 
arts.''\7\
---------------------------------------------------------------------------
    \6\ Lizzie Dearden, ``ISIS Training Children of Foreign Fighters to 
Become `Next Generation' of Terrorists,'' The Independent, July 29, 
2016,  http://www.independent.co.uk/news/world/middle-east/isis-
training-children-of-foreign-fighters-to-become-next-generation-of-
terrorists-a7162911.html (accessed July 6, 2017).
    \7\ Benotman and Malik, The Children of Islamic State.
---------------------------------------------------------------------------
    Furthermore, my previous research demonstrates that there is 
already a pre-existing threat to the West from teens and pre-teens. By 
the end of 2016, there had been 34 such plots carried out by this 
demographic in seven different countries.\8\
---------------------------------------------------------------------------
    \8\ Robin Simcox, ``The Islamic State's Western Teenage Plotters,'' 
CTC Sentinel, Vol. 10, No. 2 (February 2017), p. 21, https://
www.ctc.usma.edu/posts/the-islamic-states-western-teenage-plotters 
(accessed June 21, 2017).
---------------------------------------------------------------------------
    Chairman Gallagher, distinguished Members of the committee, the 
risk that returning foreign fighters pose to the West is stark and will 
continue to be felt for many years to come. Countries impacted by this 
threat must continue to work together to mitigate this. Even then, 
however, we can only reduce the risk, not eliminate it.
    Thank you for inviting me today and I look forward to your 
questions.

    Mr. Gallagher. Thank you, Mr. Simcox.
    The Chair now recognizes Dr. Clarke for 5 minutes for an 
opening statement.

  STATEMENT OF COLIN P. CLARKE, POLITICAL SCIENTIST, THE RAND 
                          CORPORATION

    Mr. Clarke. Thank you, Chairman Gallagher, Ranking Member 
Watson Coleman, and distinguished Members of the task force for 
inviting me to testify today.
    My testimony will address three fundamental issues. First, 
what is the terrorist diaspora?
    Second, what are the implications of this diaspora or more 
precisely what is the threat posed by returning foreign 
terrorist fighters?
    Third, what can the United States do to mitigate the threat 
posed by foreign fighters fleeing the battlefield in Iraq and 
Syria?
    The term terrorist diaspora as currently used more 
accurately describes foreign fighters who travel from more than 
80 different countries to fight with militant groups in Iraq 
and Syria and who have moved on or soon will move on to other 
countries.
    While some of these fighters might go on to provide support 
to Salafi-jihadist insurgencies, the part of the terrorist 
diaspora we are most concerned about are the foreign fighters 
who will move on from Syria and Iraq to participate in other 
civil wars or organized terrorist cells that plot to attack the 
West.
    So what is the threat posed by foreign terrorist fighters? 
I foresee multiple categories. The hardcore fighters will 
likely remain in Iraq and Syria and look to join whatever the 
next iteration of the group becomes. In all likelihood, ISIS 
remnants in Iraq and Syria will hide, rest, rearm, recuperate, 
going underground to reorganize before returning to wage the 
next phase of the insurgency.
    A second group of fighters are the potential free agents or 
mercenaries who will travel abroad to take part in the next 
jihadist theater, whether it be in Yemen, Libya, the Caucuses, 
West Africa, or Afghanistan.
    ISIS affiliates and local Sunni jihadists would likely 
welcome an influx of battle-hardened fighters. These fighters 
are the militant progeny of the original Mujahedeen, the 
transnational jihadists that once filled the ranks of al-Qaeda 
and fought in Afghanistan, Chechnya, and the Balkans.
    A third group of foreign fighters, the returnees, has 
occupied much time and energy in policy and law enforcement 
circles. These fighters may attempt to return to their 
countries of origin, whether within the region to countries 
like Tunisia and Saudi Arabia or further afield to Europe, 
Asia, and North America.
    This third group is not as homogeneous as it may seem. Just 
as foreign fighters who travel to Syria and Iraq left for 
different reasons and fought with different groups, those that 
return will do so for varying reasons as well.
    The first subgroup of returnees might be labeled the 
disillusioned. These individuals went to Syria looking for 
Utopia, adventure, and a pure expression of religious identity, 
but they found something far different.
    The second subgroup is the disengaged but not 
disillusioned. These militants, however, are still committed to 
jihadism. Although these militants might have grown 
disillusioned with ISIS as an organization, they still believe 
in the concept of jihad and remain committed to holy war 
against the West.
    The final subgroup is called the operational returnees. 
These are the returning fighters who may attempt to resuscitate 
dormant networks or create new ones, recruit members, or 
conduct lone wolf-style attacks.
    They could very well be prepositioned and seek to attempt 
an attack under the command and control of ISIS remnants in the 
Middle East. These individuals are the most dangerous and 
deadly.
    The threat is far more serious for Europe and the Middle 
East than for the United States. The same factors that make 
Europe so vulnerable to the threat posed by foreign fighters, 
geography, the overall number of citizens who travel to Iraq 
and Syria, counterterrorism capabilities, poor continent-wide 
information sharing and intelligence and law enforcement 
coordination, and the relationship between Muslim communities 
and host nation governments are those same things that present 
favorably to the United States.
    The United States must continue to allocate sufficient 
resources to prevent any foreign terrorist fighters from 
attempting to sneak into the country. This includes not only a 
stout defense of American borders, but also intelligence 
sharing with allies overseas, including European countries, 
Turkey, and other nations throughout the Middle East, Africa, 
and Asia.
    While we must continue to prevent foreign terrorist 
fighters from attempting to return to the United States, we 
must also focus on the more likely threat posed by 
radicalization and home-grown violent extremism.
    Countering violent extremism has proceeded in fits and 
starts in the West, including in the United States. We have too 
little data to understand which programs work well and which do 
not. Continued Federal support for on-going and future research 
will be critical to making progress in this area, as will 
oversight, monitoring, evaluation, and assessment to discern 
which programs work and why.
    We are entering yet another period of uncertainty. With the 
dissolution of the geographic entity known as the ISIS 
caliphate, new threats and challenges will arise. Hearings such 
as this one and many others of its kind underscore just how 
seriously the United States takes these challenges.
    The threat of terrorism can sometimes feel ubiquitous and 
how we communicate about terrorism and terrorist attacks 
affects how Americans assess the risk of terrorism. It is 
important to keep this overall perspective.
    In short, I believe that the danger posed by ISIS to the 
U.S. homeland is real but manageable, but also sympathize with 
recent remarks offered by Lieutenant General Nagata that with 
respect to ISIS, we have to conclude that we do not fully 
appreciate the scale or strength of this phenomenon.
    Thank you for the opportunity to testify today.
    [The prepared statement of Dr. Clarke follows:]
             Prepared Statement of Colin P. Clarke \1\ \2\
---------------------------------------------------------------------------
    \1\ The opinions and conclusions expressed in this testimony are 
the author's alone and should not be interpreted as representing those 
of the RAND Corporation or any of the sponsors of its research.
    \2\ The RAND Corporation is a research organization that develops 
solutions to public policy challenges to help make communities 
throughout the world safer and more secure, healthier, and more 
prosperous. RAND is nonprofit, nonpartisan, and committed to the public 
interest.
---------------------------------------------------------------------------
                             July 13, 2017
    Thank you Chairman Gallagher, Ranking Member Watson Coleman, and 
distinguished Members of the task force for inviting me to testify 
today. My testimony will address three fundamental issues. First, what 
is the terrorist diaspora? Second, what are the implications of this 
diaspora, or more precisely, what is the threat posed by returning 
foreign terrorist fighters? Third, what can the United States do to 
mitigate the threat posed by foreign fighters fleeing the battlefield 
in Iraq and Syria?
    In September 2016, referring to the Islamic State in Iraq and Syria 
(ISIS), then-Federal Bureau of Investigation (FBI) Director James Comey 
acknowledged ``the so-called caliphate will be crushed,'' although he 
subsequently warned that its fighters ``will not all die on the 
battlefield in Syria and Iraq'' and the result ``will be a terrorist 
diaspora sometime in the next 2 to 5 years like we've never seen 
before.''\3\ The caliphate is indeed being crushed, but the second- and 
third-order effects of its deterioration could send shockwaves 
throughout the West, as surviving foreign fighters attempt to wreak 
havoc elsewhere.
---------------------------------------------------------------------------
    \3\ Josh Gerstein and Jennifer Scholtes, ``Comey Warns of Post-ISIL 
Terrorist `Diaspora,' '' Politico, September 27, 2016.
---------------------------------------------------------------------------
    ISIS is hemorrhaging territory, its financing continues to be 
degraded, and popular support for the group has diminished 
significantly.\4\ As operations against ISIS in Mosul conclude and the 
offensive against the ISIS capital in Raqqa gains momentum, the 
terrorist group has begun shifting men and materiel to its stronghold 
in Deir Ezzor and Mayadeen, foreshadowing a potentially bloody conflict 
closer to the Iraqi and Jordanian borders.
---------------------------------------------------------------------------
    \4\ Seth G. Jones, James Dobbins, Daniel Byman, Christopher S. 
Chivvis, Ben Connable, Jeffrey Martini, Eric Robinson, and Nathan 
Chandler, Rolling Back the Islamic State, Santa Monica, Calif.: RAND 
Corporation, RR-1912, 2017, See also David Francis, ``Islamic State 
Revenues Down 80 Percent from 2015,'' Foreign Policy, June 29, 2017.
---------------------------------------------------------------------------
    For months, ISIS fighters have been reinfiltrating towns and 
villages throughout the Euphrates River Valley that were thought to 
have been cleared.\5\ Furthermore, it is likely that hundreds of 
militants, including many foreign fighters, have already scattered 
elsewhere and are preparing to continue waging jihad in another 
theater.
---------------------------------------------------------------------------
    \5\ Loveday Morris, ``Away From Iraq's Front Lines, the Islamic 
State is Creeping Back In,'' Washington Post, February 22, 2017.
---------------------------------------------------------------------------
                    what is the terrorist diaspora?
    The term diaspora, in its most fundamental sense, refers to a 
national, cultural, or religious group living in a foreign land. 
Historically, many diasporas have left their mark on overseas conflicts 
by providing both active and passive support--from Irish-Americans in 
the United States to Sri Lankan Tamils living in Canada.\6\ But the 
term ``terrorist diaspora,'' as currently used, more accurately 
describes foreign fighters who traveled from more than 80 different 
countries to fight with militant groups in Iraq and Syria and who have 
moved on or soon will move on to other countries. While some of these 
fighters might go on to provide passive support to Salafi-jihadist 
insurgencies,\7\ the part of the ``terrorist diaspora'' we are most 
concerned about are the foreign fighters who will move on from Syria 
and Iraq to participate in other civil wars or organize terrorist 
cells.
---------------------------------------------------------------------------
    \6\ Daniel Byman, Peter Chalk, Bruce Hoffman, William Rosenau, and 
David Brannan, Trends in Outside Support for Insurgent Movements, Santa 
Monica, Calif.: RAND Corporation, MR-1405-OTI, 2001.
    \7\ Salafi characterizes an adherent of an ideological strain in 
Sunni Islam that seeks to emulate, as purer, the thinking and practices 
of Muhammad and the earliest generations of Muslims. Jihadists believe 
that violent struggle against non-Muslims and Muslims they judge as 
apostate is an important religious duty (Benjamin W. Bahney, Howard J. 
Shatz, Carroll Ganier, Renny McPherson, Barbara Sude, with Sara Beth 
Elson, and Ghassan Schbley, An Economic Analysis of the Financial 
Records of al-Qa'ida in Iraq, Santa Monica, Calif.: RAND Corporation, 
MG-1026-OSD, 2010.
---------------------------------------------------------------------------
    An unprecedented number of fighters joined the battle in Iraq and 
Syria--many more than the mujahideen guerillas who fought in the 
Soviet-Afghan conflict during the 1980's. Jihadist expert Thomas 
Hegghammer estimated the number of foreign fighters in Afghanistan 
during the anti-Soviet conflict at 5,000 to 20,000,\8\ while scholars 
such as Edwin Bakker and Mark Singleton have estimated that around 
30,000 foreign fighters have fought in Iraq and Syria.\9\ Thus, the 
wave of fighters who could emerge from the conflict is especially 
foreboding. Foreign fighters from the Afghan conflict went on to form 
the core of al-Qaeda and fight in the internecine conflicts in Bosnia 
and Herzegovina, Algeria, and Chechnya during the 1990's.\10\ The 
fighters emerging from this conflict seek to leave a similar legacy.
---------------------------------------------------------------------------
    \8\ Thomas Hegghammer, ``The Rise of Muslim Foreign Fighters,'' 
International Security, Vol. 35, No. 3, Winter 2010/2011, pp. 53-94.
    \9\ Edwin Bakker and Mark Singleton, ``Foreign Fighters in the 
Syria and Iraq Conflict: Statistics and Characteristics of a Rapidly 
Growing Phenomenon,'' in Andrea de Guttry, Francesca Capone, and 
Christophe Paulussen, eds., Foreign Fighters Under International Law 
and Beyond, The Hague: TMC Asser Press, 2016. Importantly, this number 
likely does not include the foreign fighters in Syria fighting against 
the Islamic State and al-Qaeda-linked groups like Jabhat al-Nusra 
(since rebranded Jabhat Fateh al-Sham). Indeed, significant numbers of 
Afghan and Pakistani Shia are also fighting alongside Hezbollah and 
other pro-Assad elements and could very well be a problem for the 
United States in future conflicts, especially as tensions continue to 
grow with Iran.
    \10\ R. Kim Cragin, ``Early History of Al-Qa'ida,'' The Historical 
Journal, Vol. 51, No. 4, 2008, pp. 1047-1067.
---------------------------------------------------------------------------
    Where do these foreign fighters come from? The Soufan Group 
estimates that approximately 6,000 are from the West; of these, roughly 
150 are from the United States and 5,000 are from Western Europe. 
Nearly three-quarters of Western European fighters hail from just four 
countries: France (1,800), the United Kingdom (760), Germany (760), and 
Belgium (470).\11\
---------------------------------------------------------------------------
    \11\ The Soufan Group, ``Foreign Fighters: An Updated Assessment of 
the Flow of Foreign Fighters Into Syria and Iraq,'' December 8, 2015.
---------------------------------------------------------------------------
    The foreign fighter phenomenon is likely to worsen in the future as 
the caliphate continues to deteriorate. This phenomenon is not new. 
Over the past 200 years, foreign fighters have appeared in more than a 
quarter of all civil wars.\12\ However, this new generation of 
jihadists has improved communication, easier transportation, and 
diversified sources of information and money, making even small cadres 
of experienced fighters a dangerous force. These fighters can now 
engage in foreign civil wars and insurgencies--and export their 
expertise back to their home countries or to places they have newly 
immigrated. In addition, encrypted communications and the ubiquity of 
social media mean that even after the caliphate disappears, the 
ideology of Salafi-jihadism will persist on-line as a virtual 
caliphate, offering aspiring jihadists hope that the next major battle 
is all but inevitable and continuing to exhort its followers to conduct 
violence wherever they are.
---------------------------------------------------------------------------
    \12\ David Malet, Foreign Fighters: Transnational Identity in Civil 
Conflicts, New York: Oxford University Press, 2013.
---------------------------------------------------------------------------
        what is the threat posed by foreign terrorist fighters?
    Accordingly, what might ISIS' remaining foreign fighters choose to 
do next? When a conflict winds down, either through force or by 
negotiated settlement, where do transnational terrorists go? As I have 
outlined in Foreign Policy and The Atlantic, I see several 
possibilities.\13\
---------------------------------------------------------------------------
    \13\ Brian Michael Jenkins and Colin P. Clarke, ``In the Event of 
the Islamic State's Untimely Demise,'' Foreign Policy, May 11, 2016; 
see also Colin P. Clarke and Amarnath Amarasingam, ``Where Do ISIS 
Fighters Go When the Caliphate Falls?'' The Atlantic, March 6, 2017.
---------------------------------------------------------------------------
    The ``hardcore fighters'' will likely remain in Iraq and Syria and 
look to join whatever the next iteration of the devolving group may be. 
In all likelihood, ISIS remnants in Iraq and Syria will hide, rest, 
rearm, and recuperate, going underground to reorganize before returning 
to wage the next phase of the insurgency.\14\ In the interim, ISIS 
could transform into a clandestine terrorist organization, retaining 
the ability to conduct sporadic raids, ambushes, and possibly 
spectacular suicide attacks, both in the region and abroad.\15\
---------------------------------------------------------------------------
    \14\ Colin P. Clarke and Craig Whiteside, ``Charting the Future of 
the Modern Caliphate,'' War on the Rocks, May 3, 2017.
    \15\ Daniel Milton and Muhammad al-`Ubaydi, The Fight Goes On: The 
Islamic State's Continuing Military Efforts in Liberated Cities, 
Combating Terrorism Center (CTC) at West Point, June 2017. It is also 
worth noting that, while ISIS will still pose a threat as a clandestine 
terrorist organization, the trajectory is moving in the right 
direction, as the organization is sequentially downgraded from a 
caliphate to an insurgency to a terrorist group.
---------------------------------------------------------------------------
    During this time, militants may switch allegiances among the 
hodgepodge of groups on the ground, including ISIS, Hayat Tahrir al-
Sham,\16\ and Ahrar al-Sham (which is already a loose coalition of 
Islamist and Salafist units), and will actively seek out ungoverned 
areas still outside of the writ of either Syrian or Iraqi government 
forces and their allies. As terrorism expert Bruce Hoffman has 
suggested, if the fortunes of ISIS continue to decline, some jihadists 
may see rapprochement with al-Qaeda as the only option to continue the 
struggle.\17\ Another factor leading to a marriage of convenience 
between former comrades could be the death of ISIS leader Abu Bakr al-
Baghdadi, leading to a new phase in the global jihad.\18\
---------------------------------------------------------------------------
    \16\ Hayat Tahrir al-Sham is the rebranded Jabhat Fateh al-Sham, 
which itself was the rebranded al-Qaeda affiliate Jabhat al-Nusra. 
Hayat Tahrir al-Sham has disavowed a formal connection with al-Qaeda, 
but the true relationship between the groups is a matter of skepticism 
and debate.
    \17\ Bruce Hoffman, ``Al-Qaeda: Quietly and Patiently Rebuilding,'' 
The Cipher Brief, December 30, 2016.
    \18\ Colin P. Clarke, ``Is ISIS Leader Baghdadi Still Alive?'' 
Foreign Affairs, June 22, 2017; see also, Colin P. Clarke, ``Can the 
Islamic State Survive if Baghdadi is Dead?'' Foreign Policy, June 30, 
2017.
---------------------------------------------------------------------------
    A second group of fighters are the potential ``free-agents or 
mercenaries,'' who will travel abroad to take part in the next jihadist 
theater, whether it be in Yemen, Libya, the Caucasus, West Africa, or 
Afghanistan. ISIS affiliates and local Sunni jihadists would likely 
welcome an influx of battle-hardened fighters. These fighters are the 
militant progeny of the original mujahideen, the transnational 
jihadists that once filled the ranks of al-Qaeda and fought in 
Afghanistan, Chechnya, and the Balkans. Some fighters who are prevented 
from returning to their home countries can be expected to form a cohort 
of state-less jihadists who deliberately seek out weakly-governed 
conflict zones in unstable regions.\19\ World-wide attention has made 
such travel more difficult than for prior generations of extremists, 
but some will no doubt escape detection.
---------------------------------------------------------------------------
    \19\ David Malet, ``Foreign Fighter Mobilization and Persistence in 
a Global Context,'' Terrorism and Political Violence, Vol. 27, No. 3, 
2015, pp.454-473.
---------------------------------------------------------------------------
    When terrorism scholar Amarnath Amarasingam interviewed a Western 
ISIS fighter in late 2016, he emphasized the global reach of ISIS, 
saying the caliphate ``has reached Afghanistan, Libya, West Africa, 
Algeria, Yemen, and many, many of its soldiers are in the lands of the 
[unbelievers]'' (the West).\20\ As ISIS loses territory in Iraq and 
Syria, some fighters may indeed try to reach these other theaters of 
jihad to protect, sustain, and expand the boundaries of the so-called 
caliphate. In other words, they see other potential options.
---------------------------------------------------------------------------
    \20\ Lorne L. Dawson and Amarnath Amarasingam, ``Talking to Foreign 
Fighters: Insights Into the Motivation for Hijrah to Syria and Iraq,'' 
Studies in Conflict & Terrorism, Vol. 40, No. 3, 2017, pp. 191-210.
---------------------------------------------------------------------------
    A third group of foreign fighters--the ``returnees''--has occupied 
much time and energy in policy and law enforcement circles.\21\ These 
fighters may attempt to return to their countries of origin, whether in 
the region to Tunisia and Saudi Arabia, or further afield to Europe, 
Asia, and North America. States with more robust national screening 
mechanisms, law enforcement, and intelligence structures stand a better 
chance of stopping the fighters at their border, blunting the impact of 
these returnees. But not all Western security services are created 
equal, and further complicating the issue is the inability to even 
agree on the definition of who constitutes a foreign fighter in the 
first place.\22\
---------------------------------------------------------------------------
    \21\ R. Kim Cragin has argued that, contrary to popular belief, 
most foreign fighters do not die on battlefields or travel from 
conflict to conflict, but return home. See R. Kim Cragin, ``The 
Challenge of Foreign Fighter Returnees,'' Journal of Contemporary 
Criminal Justice, 2017.
    \22\ Alastair Reed and Johanna Pohl, ``Disentangling the EU Foreign 
Fighter Threat: The Case for a Comprehensive Approach,'' RUSI, February 
10, 2017.
---------------------------------------------------------------------------
    This third group is not as homogenous as it may seem. Just as 
foreign fighters who traveled to Syria and Iraq left for different 
reasons and fought with different groups, those that return will do so 
for varying reasons as well.
    The first subgroup of returnees might be labeled the 
``disillusioned.'' These individuals went to Syria looking for utopia, 
adventure, and a pure expression of religious identity,\23\ but they 
found something far different. Local Syrians did not respect them. They 
struggled with food, financing, and the tribulations of war. Upon 
returning to the West, these individuals could mentor other radicalized 
youth. These fighters may require psychological treatment in addition 
to prison time.
---------------------------------------------------------------------------
    \23\ Simon Cottee, ``Pilgrims to the Islamic State,'' The Atlantic, 
July 24, 2015.
---------------------------------------------------------------------------
    The second subgroup is the ``disengaged but not disillusioned.'' 
Just as there are many reasons why militants go to fight, there are 
many reasons why they leave a conflict--marriage, battle fatigue, 
desire to be with family.\24\ These militants, however, are still 
committed to jihadism. Accordingly, individuals might grow 
disillusioned with ISIS as an organization, but not with jihad as a 
whole.
---------------------------------------------------------------------------
    \24\ Jessica Stern and J.M. Berger, ``ISIS and the Foreign Fighter 
Phenomenon,'' The Atlantic, March 8, 2015.
---------------------------------------------------------------------------
    The final subgroup is called the ``operational'' returnees. These 
are returning fighters who attempt to resuscitate dormant or create new 
networks, recruit members, or conduct home-grown-style attacks. They 
are likely to be pre-positioned and likely to attempt an attack under 
the command and control of ISIS remnants in the Middle East.\25\ These 
individuals are the most dangerous and deadly.\26\ The November 2015 
Paris attacks are perhaps the clearest example; they were conducted by 
foreign fighters, who were trained in Syria and dispatched to 
France.\27\ Operational returnees are of even more concern if one 
believes that hundreds of operatives have already been deployed to 
Europe, with hundreds more hiding out on Europe's doorstep in 
Turkey.\28\
---------------------------------------------------------------------------
    \25\ See Rukmini Callimachi, ``Not `Lone Wolves' After All: How 
ISIS Guides World's Terror Plots from Afar,'' New York Times, February 
4, 2017; see also Daveed Gartenstein-Ross and Madeline Blackman, 
``ISIL's Virtual Planners: A Critical Terrorist Innovation,'' War on 
the Rocks, January 4, 2017; and Alexander Meleagrou-Hitchens and Seamus 
Hughes, ``The Threat to the United States From the Islamic State's 
Virtual Entrepreneurs,'' CTC Sentinel, Vol. 10, No. 3, March 2017, pp. 
1-8.
    \26\ Thomas Hegghammer, ``Should I Stay Or Should I Go? Explaining 
Variation in Western Jihadists' Choice between Domestic and Foreign 
Fighting,'' American Political Science Review, Vol. 107, No. 1, 
February 2013, pp. 1-15.
    \27\ R. Kim Cragin, ``The November 2015 Paris Attacks: The Impact 
of Foreign Fighter Returnees,'' Orbis, Vol. 61, No. 2, 2017, pp. 212-
226.
    \28\ Rukmini Callimachi, ``How a Secretive Branch of ISIS Built a 
Global Network of Killers,'' New York Times, August 3, 2016; see also 
Bruce Hoffman, ``The Global Terror Threat and Counterterrorism 
Challenges Facing the Next Administration,'' CTC Sentinel, Vol. 9, No. 
11, November/December 2016.
---------------------------------------------------------------------------
    The West must develop a range of strategies to handle the threat 
posed by these different groups. The ``hardcore fighters'' who remain 
in Iraq and Syria will need to be killed or captured by Iraqi Security 
Forces and the anti-ISIS coalition. The first priority should be 
detection, which goes hand-in-hand with increased information sharing 
and training partner nations to screen and investigate capacity 
potential terrorists. This suggests an even greater role for 
multilateral cooperation.
    Another major hurdle will be marshaling the resources necessary to 
monitor, track, and surveil dozens of battle-hardened jihadists 
attempting to blend back into Western society. Combating the threat 
posed by the ``free agents'' or roving band of militants calls for 
continued efforts by the West to build the partner capacity of host-
nation forces in weak and fragile States.
what is the threat to the homeland and what should the united states do 
                        to mitigate the threat?
    It is critical to have a judicious discussion about the threat 
posed to the U.S. homeland while avoiding arguments that present the 
issue as binary. In other words, defining the threat as either 
completely overwhelming or relatively nonexistent is myopic at best and 
counterproductive at worst. The threat to the West posed by returning 
foreign fighters is anything but monolithic.
    It is prudent to discuss the longer-term consequences to the 
homeland of the unraveling so-called caliphate in Iraq and Syria. In 
the long term, military gains against ISIS are a necessary step in 
ultimately defeating it. But in the shorter term, its dissolution will 
create uncertainty, rising threats, opportunities for extremists, and 
new challenges for our military, intelligence, and law enforcement 
communities. I am comforted in knowing that much effort has been 
focused on this threat since the summer of 2014--testimonies by the 
FBI, the Central Intelligence Agency, the Director of National 
Intelligence, and others have reinforced that the United States has 
taken the threat seriously and been a leader in international 
cooperation to combat these foreign fighters. And despite the high 
casualties inflicted on fighters who went to Iraq and Syria, their 
sheer numbers means that the threat will be with us for years to come.
    The threat is far more serious for Europe and the Middle East than 
for the United States. The same factors that make Europe so vulnerable 
to the threat posed by foreign fighters--geography; the number of 
citizens who traveled to Iraq or Syria; counterterrorism capabilities, 
including screening, watchlisting, and whole-of-government programs; 
poor continent-wide information sharing and intelligence and law-
enforcement coordination; and the relationship between Muslim 
communities and host-nation governments--present favorably for the 
United States. As director of the National Counterterrorism Center 
(NCTC), Nicholas Rasmussen acknowledged in Congressional testimony that 
compared to European counterparts, U.S. ports of entry are under far 
less strain from migration and U.S. law enforcement agencies are not 
nearly as overtaxed by the sheer numbers of terrorist plots and 
potential suspects.\29\
---------------------------------------------------------------------------
    \29\ Nicholas J. Rasmussen, ``Fifteen Years After 9/11: Threats to 
the Homeland,'' Statement for the Record: Hearing Before the Senate 
Homeland Security Governmental Affairs Committee, September 27, 2016.
---------------------------------------------------------------------------
    Since the attacks of September 11, 2001, 95 Americans have died in 
jihadist-related attacks in the homeland, with 63 of those deaths 
coming from just two attacks--San Bernardino and Orlando. According to 
a recent report on radicalization and jihadist attacks in the West, of 
the 17 successful attacks linked to jihadist terrorists in the United 
States between June 2014 and June 2017, none were perpetrated by 
foreign fighters.\30\ But Americans have gone to Syria and returned to 
the United States. A U.S. citizen from Florida, Moner Mohammad Abu-
Salha, traveled to Syria to fight with al-Qaeda's affiliate 
organization and returned to the United States without U.S. officials 
realizing that he had trained with a terrorist group, proving that 
government and intelligence authorities are not omniscient.
---------------------------------------------------------------------------
    \30\ Lorenzo Vidino, Francesco Marone, and Eva Entenmann, Fear Thy 
Neighbor: Radicalization and Jihadist Attacks in the West, Institute 
for International Political Studies, June 2017.
---------------------------------------------------------------------------
    Terrorists traveling to the United States from abroad to conduct 
attacks are still rare events. While 9/11 was undoubtedly a high-impact 
event, without question, it remains an anomaly. Moreover, since then, 
the United States has gone to great lengths to defend the homeland. The 
United States has worked with the screening community to develop a 
comprehensive, end-to-end vetting system that is part of a robust 
system of measures, including face-to-face interviews and biometric 
assessments, intended to serve as a line of defense against foreign 
fighters seeking to infiltrate the country.\31\
---------------------------------------------------------------------------
    \31\ For more on specific programs and databases, including the 
Terrorist Identities Datamart Environment, the Transportation Security 
Administration's Automated Targeting System, and the Electronic System 
for Travel Authorization, see Brian Michael Jenkins, ``There Will Be 
Battles in the Heart of Your Abode: The Threat Posed by Foreign 
Fighters Returning from Syria and Iraq,'' testimony presented before 
the Senate Homeland Security and Governmental Affairs Committee on 
March 12, 2015.
---------------------------------------------------------------------------
    Even with these measures, the threat has atomized; in the United 
States, violence perpetrated by home-grown violent extremists (HVEs) 
remains perhaps our foremost concern. The FBI has investigations on 
approximately 1,000 potential HVEs across all 50 States. As ISIS 
continues to lose territory, it will likely seek to emphasize high-
profile attacks to remain relevant and demonstrate virility in the face 
of severe adversity. This could result in an uptick in lone-wolf 
attacks in the West, including in the United States. Put simply, what 
happens in Raqqa matters in Rochester.
    Comparing the current threat level in the United States to the 
immediate aftermath of 9/11, Rasmussen observed,

``The threat landscape is less predictable and, while the scale of 
capabilities currently demonstrated by most of the violent extremist 
actors does not rise to the level that core al-Qaeda had on 9/11, it is 
fair to say that we face more threats originating in more places and 
involving more individuals than we have at any time in the past 15 
years.''\32\
---------------------------------------------------------------------------
    \32\ Rasmussen, 2016.

    Accordingly, the United States must continue to allocate sufficient 
resources to preventing foreign terrorist fighters from attempting to 
sneak into the country. This includes not only a stout defense of 
American borders, but also intelligence sharing with allies overseas, 
including European countries, Turkey, and other nations throughout the 
Middle East, Africa, and Asia.
    And while we must continue to prevent foreign terrorist fighters 
from attempting to return to the United States, we must also focus on 
the more likely threat posed by radicalization and home-grown violent 
extremism. Countering violent extremism has proceeded in fits and 
starts in the West, including in the United States. We have too little 
data to understand which programs work well and which do not--continued 
Federal support for on-going and future research will be critical to 
making progress in this area, as will oversight, monitoring, 
evaluation, and assessment to discern which programs work and why.\33\
---------------------------------------------------------------------------
    \33\ An especially promising study is Todd Helmus, Miriam Matthews, 
Rajeev Ramchand, Sina Beaghley, David Stebbins, Amanda Kadlec, Michael 
A. Brown, Aaron Kofner, and Joie D. Acosta, RAND Program Evaluation 
Toolkit for Countering Violent Extremism, Santa Monica, Calif.: RAND 
Corporation, TL-243-DHS, 201.
---------------------------------------------------------------------------
    We still understand very little about the radicalization process, 
what role the internet and social media play in this process, and what 
policy should be when it comes to monitoring terrorist use of social 
media (e.g., is it more prudent to shut communication channels down or 
leave them up to monitor and map terrorist networks?) Congress might 
consider funding more fusion cells and allocating resources for law 
enforcement training to deal with the threat from returning foreign 
fighters. This could extend to funding for the recruitment of linguists 
and cultural experts working in tandem with Customs and Border Patrol 
and Citizenship and Immigration Services.
                               conclusion
    We are entering yet another period of uncertainty. With the 
dissolution of the geographic entity known as the ISIS caliphate, new 
threats and challenges will arise. Hearings such as this and many 
others of its kind underscore how seriously the United States takes 
these challenges. The threat of terrorism can sometimes feel 
ubiquitous, especially as ``the post-9/11 media has profoundly changed 
how Americans assess the risk of terrorism.''\34\ It is important to 
keep a sober perspective.
---------------------------------------------------------------------------
    \34\ Daniel Byman and Will McCants, ``Fight of Flight: How to Avoid 
a Forever War Against Jihadists,'' Washington Quarterly, No. 40, No. 2, 
2017, pp.67-77.
---------------------------------------------------------------------------
    In their 2015 study, ``Assessing the Islamic State's Commitment to 
Attacking the West,'' Hegghammer and Petter Nesser conclude that ``the 
Islamic State does not currently pose the same type of terrorist threat 
to the West as al-Qaeda did in the 2000's.''\35\ I would extrapolate on 
this to argue that this statement may be true for the United States, 
but perhaps no longer true for Europe. But even within the United 
States, there are risks that may not stem from the terrorist diaspora.
---------------------------------------------------------------------------
    \35\ Thomas Hegghammer and Peter Nesser, ``Assessing the Islamic 
State's Commitment to Attacking the West,'' Perspectives on Terrorism, 
Vol. 9, No. 4, 2015.
---------------------------------------------------------------------------
    And while we focus on these new challenges posed by the unraveling 
of ISIS, let us not forget that our principal terrorist adversary over 
the past 20 years--al-Qaeda (or at least some form of it), is still 
with us, as evidenced by al-Qaeda in the Arabian Peninsula's increasing 
obsession with attacking commercial aviation; this group will remain a 
direct threat to the United States.
    With each brutal battle in Iraq and Syria, the potential pool of 
foreign fighters is shrinking. ISIS fighters are dying in shocking 
numbers--nearly 60,000 have died since June 2014.\36\ The 300 that 
until recently were hunkered down in Mosul showed no proclivity to 
surrender or escape; they launched counteroffensives against Iraqi 
forces, including waves of suicide attackers. Those that survive these 
major battles will keep defending the caliphate until the bitter end, 
either in Mayadeen or in whatever disparate outposts of the Sunni Arab 
hinterlands remain available.
---------------------------------------------------------------------------
    \36\ Ben Hubbard and Eric Schmitt, ``ISIS, Despite Heavy Losses, 
Still Inspires Global Attacks,'' New York Times, July 8, 2017.
---------------------------------------------------------------------------
    In short, I agree with the assessment of Georgetown University 
professor Daniel Byman, who, in testimony last month to the U.S. Senate 
Committee on Foreign Relations, concluded the danger posed by ISIS to 
the U.S. homeland is ``real but manageable.''\37\ With 150 American 
foreign fighters, scores of whom are presumably dead, it may be 
possible to assign regular surveillance to each of these individuals in 
case they do attempt to return home.
---------------------------------------------------------------------------
    \37\ Daniel Byman, ``Beyond Iraq and Syria: ISIS' Ability to 
Conduct Attacks Abroad,'' testimony for the U.S. Senate Committee on 
Foreign Relations, June 8, 2017.
---------------------------------------------------------------------------
    Yet even as the United States faces less of a threat than our 
European allies, we cannot become complacent and must ensure continued 
vigilance. Toward this end, I heed recent remarks offered by Lt. Gen. 
Michael K. Nagata, one of the Army's top special operations forces 
officers, that with respect to ISIS, ``we have to conclude that we do 
not fully appreciate the scale or strength of this phenomenon.''\38\
---------------------------------------------------------------------------
    \38\ Hubbard and Schmitt, 2017.

    Mr. Gallagher. Thank you, Dr. Clarke.
    In the interest of time, Member questioning will be limited 
to 3 minutes each with multiple rounds if possible. Without 
objection, so ordered.
    I now recognize myself for 3 minutes for questioning. The 
primary purpose of this task force is denying terrorist entry 
into the United States, obviously, but what emerges from all of 
your testimony is, in my opinion, the urgent threat that our 
European allies--I think Mr. Simcox, you threw out the figure 
of 23,000 suspects in the United Kingdom.
    Maybe each of you briefly, could you address what steps our 
European allies have taken in terms of identifying and fixing 
gaps in screening, border security, information sharing, 
prosecution, and where they might need to go?
    Mr. Joscelyn. I will just add one quick response to that. 
One of the things in the Europol report that I pointed to, 
which I flagged for you in my written testimony, is that they 
are putting more investigators in the refugee hotspots pouring 
in through Italy and the Mediterranean and Greece and that sort 
of thing to try and figure out basically which ones are 
actually foreign fighters who were trying to use the refugee 
flows as a mask for their own operations, sort of as the Paris 
in November 2015 attackers did.
    I think what Robin pointed to and some of the other 
statistics I point to in my report that the main problem here 
is that European counterterrorism forces are basically--
authorities are overwhelmed. They are trying to basically look 
at a vast threat pool, and they are trying to determine which 
ones are going to pop off at any given time.
    The link I wanted to highlight there was I think it is 
easier for European citizens or residents to get into this 
country if they wanted to come here and do an attack than 
somebody who wanted to come directly from Iraq and Syria or 
possibly one of these other hotspots.
    Mr. Simcox. So the Europeans have got better at sharing 
intelligence when it comes to the foreign terrorist fighter 
threat, but where there hasn't been an awful lot of progress 
and where there is inconsistency is the non-foreign fighters, 
the radicals that are already in that country.
    Say, are the Dutch sharing information with the United 
Kingdom? Are the United Kingdom sharing the information with 
France? Often they can't because of the nature of how that 
intelligence has been gathered. So there is a real problem, not 
from the screening refugees problem, is still a major issue 
because of the scale of the numbers that are still coming in. I 
think there is a lot more that needs to be done on that.
    But I would just say in my conversations with European 
officials they know that their capacity on this isn't good 
enough. They want help on it, and it is a real area of 
potential agreement and cooperation between the United States 
and the European partners who want to get better.
    Mr. Clarke. My conversations I know the Europeans are 
working hard to build capacity in those areas, including 
training. But one area in particular, and I tend to focus a lot 
on the finance end of attacks, is synching law enforcement at 
the local level with the National-level entities.
    A lot of these jihadis have criminal backgrounds. Sometimes 
these are guys that are petty thieves and criminals and they 
are more well-known to the local beat cops than they are at the 
higher level. So connecting those two from the grassroots up to 
the top is critical to figuring out exactly who these people 
are and how they may attempt to fund their attacks.
    We know how they funded their travel to Iraq and Syria. We 
are now concerned about how they might fund their travel from 
Iraq and Syria back home to Belgium, the United Kingdom, 
France, Germany, et cetera.
    Mr. Gallagher. Great, thank you.
    To my colleagues 3 minutes goes quickly, so use it wisely.
    The Chair now--but I do hope we are able to touch on both 
of your testimonies touch on the cubs of the caliphate program 
and the role of children, as well as domestic radicalization, 
which is a real thorny one.
    But the Chair now recognizes the Ranking Member of the task 
force Mrs. Watson Coleman----
    Mrs. Watson Coleman. Thank you very much.
    Mr. Gallagher [continuing]. For 3 minutes.
    Mrs. Watson Coleman. Thank you for your testimony. I think 
I want to follow up with what the Chairman was talking about. 
You talked about the impact on our European partners.
    What is it that we can do that European partners would 
allow us to do that would help them in what really becomes a 
crisis for them and that would therefore accrue a benefit to us 
by ensuring that what is happening there is documenting, is 
accountable, and makes us safer?
    I would like to hear from each of you on that. I guess that 
will be my 3 minutes.
    Mr. Joscelyn. OK. Real quick, I will just say the United 
States is the best in the world at tracking the external attack 
network for ISIS, which are the plotters who are actually 
trying to send people abroad to commit attacks. It is some of 
that intelligence I would imagine is probably highly classified 
and difficult to share.
    But what is imperative there is to try and identify the 
external attack planners and figure out any of the Europeans or 
Western citizens or people in their orbit who may be tied to 
their networks who then could be activated abroad or could be 
sent abroad for an attack. That is sort-of a key link, I think, 
in terms of the severity of terrorist plots.
    Mr. Simcox. I would suggest there are a couple of things. 
For example, one of the problems that European countries are 
having is when people, for example, from Tunisia have come into 
their countries illegally, they are having tremendous problems 
being able to send them back if they are a National security 
threat.
    So any pressure the pressure the United States can put on 
some of those countries to be able to get them to accept 
security threats from Europe would be a great help.
    Sharing intelligence where possible, although I know of 
course it isn't always possible, it is very useful. Encouraging 
European governments to spend money on this, encouraging them 
to treat it with the seriousness it deserves, especially some 
of the smaller European countries.
    I think overall just taking a more aggressive and realistic 
approach to the issue. It seems hard to believe that Europe 
didn't before 2016, but I think that is the reality in some of 
those countries.
    Mr. Clarke. I think as Tom mentioned, I would echo the 
United States is the best in the world at screening, 
watchlisting, and connecting what we are doing offensively in 
the region in Iraq and Syria with what we are trying to do 
defensively in terms of securing borders at home.
    One area I think that the Europeans could probably use some 
advice is in triangulating intelligence, right? So all the 
different ``INTS'' that we know and talk about, SIGINT, HUMINT, 
and everything else, because it has got to be really a multi-
INT picture instead of looking at these in individual siloes.
    Mrs. Watson Coleman. Do you believe that the current 
climate with sort-of our leadership at the very top and the way 
we have been dealing with our so-called allies on the 
international stage has any impact at all on whether or not 
they would be amenable to our assistance?
    Mr. Joscelyn. Well, there is a lot to answer there, ma'am, 
and I don't have enough time, but I will just say one thing. 
The leaks that we saw coming out about the investigations in 
the United Kingdom around the Manchester arena bombing, which 
is not directly tied to politics but is tied to intel sharing, 
did cause problems. That sort of thing needs to be tamped down 
permanently.
    Mr. Gallagher. Thank you.
    The Chair now recognizes the gentleman from Louisiana, 
Captain Higgins.
    Mr. Higgins. Thank you, Mr. Chairman. Gentlemen from the 
panel, thank you for appearing.
    I believe that terrorists overseas that are identified as 
active, radicalized, Islamic jihadists should be tracked and 
killed. I believe we should identify and very closely monitor 
suspected radicalized Islamic terrorists. If it can be 
determined that they are involved in conspiracy to commit 
actual acts of terror, then they should be arrested, 
prosecuted, and if convicted, incarcerated.
    I further believe that we need to stop or greatly interfere 
with the recruitment and radicalization efforts that are taking 
place as we defeat our enemy and it disperses, which is the 
essence of this particular hearing. They are recruiting new 
people. This is increasingly happening in the digital realm.
    So this leads me to my question for you, Mr. Joscelyn. Do 
you believe that the United States and our allies are 
sufficiently monitoring and defending our homelands, our 
respective homelands, as allies in regarding the digital realm, 
including monitoring social media, emails, et cetera, to stop 
radicalization efforts?
    That the time is coming fast when a man would have to 
travel to a foreign land to receive training in jihadist 
training. It could be done on-line. Are we doing what we need 
to do to stop that?
    Mr. Joscelyn. I don't have enough time to give you a full 
answer. Maybe I will do something in writing, but there is a 
mixed bag is the answer basically.
    The FBI and others inside the United States do some amazing 
work in thwarting plots. If you go through their filings and 
legal filings in terms of detecting email traffic and that sort 
of thing in finding people who are radicalized and who are in 
communication with ISIS operatives overseas. There is some 
amazing work being done there.
    In terms of counter-messaging though, however, in the 
digital websites and social media and that and shutting that 
down, however, I would say no. The efforts don't come close to 
being adequate to what they should be.
    Mr. Higgins. Thank you.
    Mr. Joscelyn. If I can find the ISIS propaganda sites, if 
Calipha News 381 is suspended at 12:01, I know Calipha News 382 
is up at 12:02. Doesn't take me much to find it, you know? So 
they know that, too. So there are a lot of problems in that 
regard.
    Mr. Higgins. Would you be able to give this committee a 
more thorough answer in writing, sir, whereby we may examine 
your suggestions and consider them?
    Mr. Joscelyn. I would be happy to.
    Mr. Higgins. Thank you very much.
    Mr. Chairman, I yield back.
    Mr. Gallagher. The Chair now recognizes the gentlelady from 
California, Ms. Barragan for 3 minutes.
    Ms. Barragan. Thank you.
    Mr. Clarke, the administration earlier this year instituted 
a travel ban that impacted mostly majority-Muslim countries. 
What is your opinion? Do you happen to think that a ban like 
this only exacerbates the threat of foreign fighters coming 
back? If so, why?
    Mr. Clarke. I think it is still too early to tell what the 
impact of a potential ban is. In general I think it is a good 
idea to constantly reassess who we let into this country, so I 
do agree with taking a hard look and scrutinizing who travels 
to this country.
    But at the same time, there is a threat from countries like 
Pakistan, Afghanistan, and elsewhere that weren't included on 
the travel ban. So I think right now--again, there is also a 
lag effect in terms of a lot of this, how it is portrayed from 
a propaganda perspective. But again, a lot of things that the 
United States does is included in propaganda.
    So again, at the end of the day I think I would probably 
leave it as an incomplete. I think this is a period right now 
where we are in a pause, where we have an opportunity to look 
further and to see how effective this actually could be.
    Ms. Barragan. OK.
    My next question for anybody is if foreign fighters are 
returned to the United States by what mode or means do you 
think they will return? What is the most likely? Would it be, 
you know, planes, airports, the port through board, on foot 
through that south border wall? I mean, if you are going to 
have ISIS fighters come to this country by what mode do you 
think it would be most likely to come back?
    Mr. Joscelyn. I mean, I think it probably they would try--
the normal means that we all use to try to get back in the 
country I think is probably the way they go, flights, that sort 
of thing. I don't see any data that is publicly available that 
says they are preferring one means over another, you know, if 
that is what you are asking.
    So there is no policy justification for trying to block one 
means versus another one, if that is what you are asking, as 
far as I can tell.
    Ms. Barragan. Does anybody else want to chime in?
    Mr. Clarke. In terms of how jihadists or foreign terrorist 
fighters may attempt to infiltrate, yes, I think most likely 
they are going to try to fly here, but again, it is often 
presented as a binary debate.
    I hear all the time that it is framed in terms of there are 
terrorists pouring over the border or no, they would never come 
over the Southern Border. I don't see evidence that there are 
terrorists pouring over the border, but at the same time it 
seems logical that that would be one way to sneak into the 
country.
    So my follow-up to that is always if someone were to 
infiltrate the country through the Mexican border, is there an 
existing infrastructure in place that would facilitate some 
kind of attack? I am far more doubtful about that.
    So if they were to go through the trouble of getting here, 
then what? I often don't hear a good response to that.
    Mr. Gallagher. Thank you.
    The Chair now recognizes the gentleman from Florida, Mr. 
Rutherford for 3 minutes.
    Mr. Rutherford. Thank you, Mr. Chairman.
    Mr. Clarke, in your written testimony you had talked about 
really three types of fighters, the hardcore, the free agents, 
the mercenary types, and then also the returnees, as you call 
them.
    I am particularly concerned about the returnees who could 
come back to the United States, but could you talk about the 
breakdown of what you suspect that might look like? How many 
will actually remain hardcore in the region? How many will, do 
you think return?
    Mr. Clarke. Yes. So it is difficult to quantify that, 
right, to say I think 30 percent are going to stay, you know, 
20 percent--any number I gave you would be made up. I think by 
and large those that are committed to the fight, as we have 
seen in Mosul, have dug in and are fighting to the death.
    A lot of foreign fighters, including a lot of Chechens have 
stayed, and they are meeting their death in Mosul. I think, 
again, due to geography it would be difficult for those that 
wanted to get back to the United States to do so.
    So I think the second-most likely category is probably the 
free agents and mercenaries who go on and fight another fight, 
whether that is in Libya, whether that is in other parts of 
North Africa or elsewhere.
    So I think the returnees are probably the smallest 
percentage. But as research by Thomas Hegghammer and others 
have shown, those that do make the trip back that are trained 
are the most lethal. So while it is a small chance or a small 
percentage, we still have to obviously guard against that.
    Mr. Rutherford. Right. I particularly want to highlight 
that you said they are the most lethal. Which makes it 
imperative that we do all that we can to battlefield identify 
those individuals in all three groups because, as you said, we 
don't really know who will be in which group.
    But Mr. Simcox, can you talk a little bit about how we are 
doing as far as battlefield identification of individuals and 
getting them into the terrorist system so that CBP and others 
know who these folks are when they start to travel?
    Mr. Simcox. Well, certainly from a European perspective, 
they are very confident that they know who most of the people 
are who have traveled. They are never going to get complete 
coverage, but they are quite confident.
    I think one of the things to look for when you are trying 
to assess and as Dr. Clarke said, it is very hard to know 
exactly who is going to pose the most lethal threat upon return 
and quantify it, but it is worth looking, I think, at when 
people traveled. Anyone traveling to Syria after 2014 at the 
latest knew what he was or she was going there to get involved 
in. They knew what ISIS represented.
    You could make an argument for maybe some of the 2011 
travelers had different motivation, so I think it is 
borderline. But you could make an argument. So I do think it is 
worth looking at the dates of departure when trying to assess 
this.
    Mr. Rutherford. Thank you, Mr. Chairman. I yield back.
    Mr. Gallagher. Thank you.
    The Chair now recognizes the gentlelady from Texas, Ms. 
Jackson Lee for 3 minutes.
    Ms. Jackson Lee. Let me thank the Chairman for yielding and 
thank the Ranking Member as well.
    The witnesses, I was in a similar hearing this morning so I 
am just going to follow the same tracking of questions. I like 
the opening statement that I am reading that indicates ``The 
fall of Mosul and likely of Raqqa won't be the end of the 
Islamic State.'' I said this morning that our responsibilities 
are clearly the securing of the homeland.
    So I would be interested in your assessment of intelligence 
resources and how you think we should emphasize intelligence 
resources in terms of the preventative blocking or intelligence 
about how many recruits may return or the idea of surveilling 
and determining--obviously we are a freedom of speech and 
thought Nation--those who may be radicalized right here in the 
United States off of social media.
    Mr. Joscelyn.
    Mr. Joscelyn. Just real quick, that opening line was from 
my testimony, and the thought that leads off from----
    Ms. Jackson Lee. I was wondering if you would recognize it.
    Mr. Joscelyn. I did.
    Main reason is because we are talking about the terrorist 
diaspora today. I think Robin in his testimony emphasized parts 
of this as well. I don't think it is going to be a shotgun 
blast of a diaspora out of the lands of the caliphate where you 
have to deal with it sort of all at once.
    I think this is going to be an on-going problem for 
intelligence and homeland security officials, you know, in the 
near future. You have multilayers to the problem. Yes, you have 
the perspective of a guy or a gal who basically comes back 
directly to commit an attack that day or that week or that 
month.
    That is probably a low percentage of overall what you are 
going to be dealing with in the long run. The long run you have 
to worry about those sort of second-tier threats, the people 
who are going to come back and do, as Robin talked about, 
indoctrinating or recruiting a cell.
    There is an example I wrote up recently of somebody who 
came from al-Qaeda in Syria back to Columbus, Ohio or somewhere 
in Ohio and basically he was setting up a cell to commit an 
attack. He wasn't even going to do it himself.
    That sort of thing is, I think, in the long run what is 
going to basically take up probably more resources than is 
probably appreciated right now.
    Ms. Jackson Lee. Thank you.
    Mr. Simcox.
    Mr. Simcox. Well, I think you obviously need to take a 
board approach to this question. The thing that I would 
probably drill down on is there is a lot of discussion at the 
moment around CVE.
    I have always viewed that, and we have a lot of experience 
with this in the United Kingdom, is something that I understand 
why people have to try and why government has to try to take 
that preventative approach. I don't have massive amounts of 
confidence in the program as it currently exists, and I do 
think there are an awful lot of improvements to be made.
    But even with improvements, that kind of program, I think 
is a, it needs to be in the toolbox for all the things you 
would bring to the counterterrorism, counter-radicalization 
discussion, but I wouldn't put huge amounts of faith in it.
    Ms. Jackson Lee. I would like Dr. Clarke to be able to 
answer, Mr. Chairman, and then I would like, Dr. Clarke, if you 
could comment on the importance of countering violent extremism 
as a component of our fight?
    Mr. Clarke. Yes. I mean, I pretty much agree with Robin 
there. I think CVE is important, but I think the literature, 
the academic literature and I tend to base my judgments off of 
empirical evidence and data, is so nascent that we really don't 
know what works and what doesn't.
    You know, people are coming out of the woodworks now 
promising CVE programs as if they were some kind of magic 
bullet or silver bullet. I just, you know, I totally dismiss 
that. I think it is important to learn what works and what 
doesn't, but we are just not there yet.
    That doesn't mean throw the baby out with the bath water. 
It means, you know, buckling down and getting some really smart 
people to start thinking about this in a focused manner. So and 
again, it is one pillar in an otherwise broad, comprehensive 
counterterror strategy.
    Ms. Jackson Lee. OK. Thank you.
    Mr. Gallagher. Thank you.
    Ms. Jackson Lee. I yield back. Thank you.
    Mr. Gallagher. The Chair now recognizes the gentleman from 
Pennsylvania, Mr. Fitzpatrick for 3 minutes.
    Mr. Fitzpatrick. Thank you, Mr. Chairman.
    Thank you all for being here. I will just address the 
question to the entire panel. It is the same question I asked 
Secretary Kelly when he appeared before us regarding Visa 
Waiver.
    So we all know the threats of entry through various 
mechanisms, whether it be the Northern Border, the Southern 
Border, the refugee program, the legal immigration process, as 
was the case with Malik regarding San Bernardino. But I want to 
address the Visa Waiver Program for a second to the extent that 
any of you have researched or put some thought into that.
    Thirty-eight countries roughly, part of the program started 
in the 1980's based on the Human Development Index, which is 
basically higher-income countries. That was the old model back 
then.
    We live in a very different world in 2017 than existed back 
in the 1980's. The threats have changed, and terrorism is no 
longer a regional threat.
    It is a global threat, and there are a lot of really 
dangerous people that live in really nice places like 
Copenhagen and Brussels and Paris and London. There are some 
really good people that live in really tough places.
    The Visa Waiver Program I think last year about 70,000 came 
in. Currently I think there are about 150,000 overstays. It is 
I believe a dangerous situation we are in right now when you 
have a lot of people that have been radicalized in Western 
Europe that can essentially come in through the waiver process 
that goes unchecked.
    With all the billions of dollars we spend on National 
security, that seems to be a glaring gap. So I just wanted your 
perspective on that.
    Mr. Simcox. Congressman, I know I have colleagues at the 
Heritage Foundation who have done an awful lot of work on the 
Visa Waiver Program and are currently supportive of it, 
although they recognize some of the threats that you outlined.
    I would like to be able to give you a fuller answer with a 
testimony if that is OK?
    Mr. Joscelyn. Just real quick, there are many reasons why I 
don't think the travel ban, for example, works and is effective 
at all. This is one of them. So if you look in European nations 
in terms of how they say the arrests or threats have manifested 
there, in 2016 Europol says there were 718 jihadist terrorist 
arrests across the European countries, many of whom, obviously, 
have a visa waiver in effect.
    Only 22 of those arrests were returnees from Iraq and 
Syria. And 77 of the 718 were returnees from any battlefield, 
so Iraq, Syria, elsewhere.
    So 718 means that basically most of the threats that they 
are dealing with in Europe who are, can more easily get in to 
the United States via the Visa Waiver Program from European 
countries are actually already residents or citizens in Europe.
    I think that that--basically that doesn't even--although 
718 are potentially going to do that, all I am saying is that 
if I were looking to plan something in the United States and I 
wanted to get somebody to go do it, I would use somebody who 
could get in that way because it is easier.
    Mr. Fitzpatrick. Mr. Joscelyn, could you provide the 
committee with that information when you get it?
    Mr. Joscelyn. Sure. It is actually there. It is in my 
written testimony, but I can provide more on that one.
    Mr. Fitzpatrick. OK.
    Mr. Clarke. I would just add to what Tom said. We are 
talking about those arrests, and correct me if I am wrong, but 
those are people that didn't travel to Iraq and Syria. So those 
are Europeans that never left.
    Dan Byman had a piece in Lawfare, either today or 
yesterday, talking about frustrated foreign fighters. So in 
some sense it is countries can be a victim of their own 
success.
    We spend a lot of time preventing people from going, right? 
But now they are home and they are still intent to attack or 
travel elsewhere to places including the United States to 
launch an attack.
    If I can just quickly, one thing we know about terrorist 
organizations is that they are highly adaptable. The Islamic 
State in particular has found a way around sending people from 
one battlefield to the other.
    That is, as I am sure all of you know, the virtual 
entrepreneur model where they are using encrypted comms to get 
in touch with people that never left the place to actually 
direct them through every step of how to conduct an attack. 
Daveed Gartenstein-Ross and others have written about this 
extensively.
    Mr. Fitzpatrick. I yield back.
    Mr. Gallagher. Thank you.
    The Chair now recognizes the gentleman from Virginia, Mr. 
Garrett for 3 minutes.
    Mr. Garrett. So I would thank the Chair and Mr. Clarke for 
providing a wonderful segue into the line of questioning that I 
have. I was a moderately decent soldier and a competent 
prosecutor, and I am familiar with 18 Code U.S. 2332(b), which 
makes illegal acts of terrorism transcending national 
boundaries and the concepts of conspiracy and intent, which 
would allow the prosecution of individuals who might not have 
completed efforts to do these things.
    Mr. Joscelyn spoke earlier of an individual in Cleveland 
who had returned after having been involved with al-Qaeda, and 
Mr. Clarke talks about individuals from other areas as well.
    I have read stories obviously of individuals from the 
United States who were arrested as they sought to travel to 
join ISIS. What I have not read is the proactive arrest of 
individuals who had been identified when they returned.
    Mr. Simcox, do you know of any instances where we have 
identified individuals who have traveled abroad to engage in or 
support terrorist organizations being arrested upon their 
return to the United States?
    Mr. Simcox. Well, the United States I am less familiar 
with. Europe is--many of those arrests have taken place, but 
there has been great difficulty in translating evidence or 
intelligence from the battlefield into courtrooms. So there has 
not been the success rate with convictions that European 
governments would have liked.
    Mr. Garrett. Does anyone in the panel, and this is open-
ended, familiar with any sort of proactive reverse 
investigative techniques? For example, we worked hard in a past 
life on those who might seek to use electronic communication 
devices to exploit children by creating individuals on-line who 
might appear to be someone who they are not, for example, a 13-
year-old girl who is actually a 34-year-old detective.
    Do we ever engage in essentially chatroom conversation with 
folks who would allege that they had traveled abroad? Does 
anybody know about anything like that? If so, can you think of 
a good reason why or why not we might seek to do that sort of 
thing?
    Mr. Joscelyn.
    Mr. Joscelyn. Yes. So one of the things we track and what 
we journal is the FBI's filings from the different cases. You 
can see in those filings that they have undercover operatives 
communicating with people who travel abroad or people who are 
suspected of being radicalized inside the United States who may 
commit an attack.
    The FBI clearly, if you just go through the filings, it is 
obvious to me they have a program to basically interdict or 
sort-of go after people who----
    Mr. Garrett. Sure, and with all due respect, I have got 45 
seconds. That makes me feel good and I would argue----
    Mr. Joscelyn. Sure.
    Mr. Garrett [continuing]. Though I would submit that 
perhaps the recent arrests at Schofield Barracks in Hawaii is 
indicative of this sort of engagement.
    But what I would like to know is given the fact that 
whether it is a local national, a U.S. citizen, or a foreign 
national coming to the United States, based on the current code 
of the United States, specifically 18 U.S. Code 2332, whether 
the current administration or the previous administration has 
done anything to round up folks who left the fight and came 
back?
    Because you give me the facts, and I will lock them up. Are 
we doing that? Anybody?
    Mr. Joscelyn.
    Mr. Joscelyn. As the way you stated it probably not, no. We 
are not doing that, no.
    Mr. Garrett. But you would concede it is illegal to do 
that, and the statute of limitations is 8 years, why aren't we?
    Mr. Joscelyn. Yes. I mean, the FBI knows--I am not 
defending the FBI here, but I know the FBI does investigate 
these people or tries to anyway, on a regular basis.
    Now, that doesn't mean they are rounding up and arresting 
them like you are saying, but they are investigating and trying 
to stop people that they think or suspect are going to 
basically pop off.
    Mr. Garrett. Mr. Chairman, I am 11 seconds over. I would 
submit that if we have laws on the books to arrest and 
incarcerate individuals who have traveled abroad to engage in 
and support terrorism and we are not doing it, somebody needs 
to whisper in the administration's ear. Thank you.
    Mr. Gallagher. Thank you.
    We will now entertain a second round of questions, and I 
will recognize myself for 3 minutes.
    Mr. Simcox, I think you suggested there are 500 French 
children in Syria, 150 of which have been born in Syria, some 
80 Dutch.
    Then Mr. Joscelyn, in your written testimony you talk about 
this cubs of the caliphate program. Talk to us just both of 
you, just talk a little bit more about that phenomenon and what 
unique challenges it might pose to our efforts as a task force? 
Because I think it is an underappreciated phenomenon right now.
    Mr. Simcox. Well, yes. So one of the complications right 
off the bat is the citizenship question of some of these 
children. Are they French? Are they British? Are they Dutch? 
Are they French Syrian?
    That is the first question that is being posed and 
obviously what we do with these children when they return to 
their countries of origin. Are there any kind of de-
radicalization programs that we could put them through that we 
are confident would work? I don't think there is.
    So in terms of this task force, this is a problem for 10, 
20, 30 years down the line where you have these children that 
have been, I think, brainwashed essentially with violent 
ideology who will have every right to return to Europe and 
somewhere down the line every right to travel to the United 
States. I think we need to be very, very wary of that as a 
potential future threat.
    Mr. Joscelyn. Just so real quick, one of the more 
disturbing videos I have seen of late of the many disturbing 
videos we have seen come out of ISIS will star foreign children 
who were forced to commit beheadings of men who were 
imprisoned. They were dressed up like the perpetrators of the 
November 2015 Paris attacks.
    So what happened is before November 2015, some of the men 
who went off to commit that attack actually committed these 
brutal executions overseas in Iraq and Syria. These four 
children reenacted that scene on behalf of ISIS. ISIS made them 
do that.
    The message in the video was very explicit. You are getting 
some of our guys now. We are raising a new generation to come 
after you in the future. That was the whole idea and why they 
were dressed up like the Paris attackers.
    This is a massive psychological and security problem for 
the near future, mainly in Iraq and Syria, but of course 
elsewhere. This cubs of the caliphate program exists elsewhere. 
We have seen it in Afghanistan. We have seen it in North 
Africa.
    This is absolutely a form of brainwashing. Back in the 
communist days in Maoist China and sort-of thing, we have read 
up on this, one of the reasons they do this is they want to 
shock the conscience of the person to think there is no way of 
coming back.
    That basically if you commit an absolutely horrific crime, 
that basically just violates all laws of human nature, then 
basically there is no way to come back from that. You are then 
indoctrinated for life.
    That is the idea behind it. That is part of what they are 
trying to do. This creates a massive problem, and I am not 
going to pretend I have the answers.
    Mr. Gallagher. Then, I mean, as we look at the audience 
here today, we have mostly young people that are presumably 
interested in counterterrorism and National security. I mean, 
are we on the flip side--and I am going to go over my time, but 
that is OK.
    Are we--that is right. Thank you. Do you think are we doing 
enough to get that next generation engaged and just recruit the 
best linguists, regional experts?
    Does our security clearance process hinder the recruitment 
of the best analysts and that sort-of next generation of 
intelligence professionals and political warriors, if you will, 
although we have sort-of lost the art of political warfare?
    Dr. Clarke, I am interested in your thoughts on that.
    Mr. Clarke. Yes. So maybe I am a bit of an optimist here 
and in addition to being a political scientist at the RAND 
Corporation, I am a college professor at Carnegie Mellon 
University in Pittsburgh, Pennsylvania.
    At CMU in particular I was growing a program called the 
Institute for Politics and Strategy, which is really cross-
cutting. It involves people that are involved in cybersecurity.
    As you probably know, CMU is a big engineering and computer 
science school, and so at least from my perch I think there is 
a lot of interest from younger generations in combining 
international relations with cybersecurity, which is a huge 
need, a growing need for our country with some of these other 
things like robotics, which could be used for the military in 
the future.
    Mr. Gallagher. We are out of time, but if there are any 
recommendations from FDD or Heritage on that front, I think we 
would welcome them.
    The Chair now recognizes the Ranking Member, Mrs. Watson 
Coleman for 3 minutes.
    Mrs. Watson Coleman. Thank you, Mr. Chairman. Thank you for 
all of your testimony. It has been very interesting and very 
illuminating. I want to kind of take us back a little bit here.
    This task force is to deny foreign fighters entry into the 
United States of America. So I need to know from you a couple 
of things, if you don't mind? Is the threat of those folks 
coming to the United States of America low, medium, or high?
    What is it that you think we should do differently than we 
do now in terms of who comes into this country? Get you to 
respond to that and whether or not you think that that is our 
biggest threat or should we be focusing on those who get 
radicalized here and never leave here but become a threat to 
us?
    So would you all three have at it for me? Thank you.
    Mr. Joscelyn. Just very quickly, what I would say about 
this is as our security systems are overwhelmed by domestic 
threats, both in Europe and here in the United States, what I 
would say is it is a low-probability event that a highly-
trained team of foreign fighters could come in here, but I 
think there is a higher probability to it than it is ascribed 
in the bureaucracy, is the way I would put it.
    So we have to be very careful because what is happening now 
with the FBI and the other security services is they are being 
overwhelmed by, you know, the 18-year-old who is downloading an 
ISIS magazine in their parents' basement in Staten Island, OK?
    That guy may be a threat, but it does not necessarily 
deserve the amount of resources that he is being given. This is 
part of the conversations I am having is sort-of I think there 
is a resource allocation problem that is potentially could be 
exposed here by our enemies. I will leave it at that.
    Mr. Simcox. I would just add that I think that in terms of 
the plots, the most numerous are probably from the home-grown 
radicals that never made the trip to Syria or Iraq. But in 
terms of the potential scale of carnage, I would say the 
highest threat comes from those who have traveled to those 
conflict zones, fought and trained with these terrorist groups 
and come back and try and carry out an attack.
    I mean, just look at what happened in Paris. I think the 
highest risk in terms of the body count, to be frank, comes 
from that kind of fighter.
    Mrs. Watson Coleman. I am interested in knowing the level 
of threat you think it is to our homeland: Low, medium, or 
high? I understand what you are saying.
    Mr. Clarke. I would say I agree with Tom. I think it is a 
low-probability, high-impact event though. So we talk all the 
time about black swans, the unknowable event that has a 
catastrophic impact.
    I think this is probably more along the lines of a gray 
swan, something that is imminently knowable but we also have to 
do the legwork, connect the dots and share intelligence and 
work with our partners overseas to put those pieces together.
    It is not a fait accompli that we will just figure this out 
because we put a lot of resources into intel. We also have to 
do the hard work to get there.
    Mr. Gallagher. The Chair now recognizes the gentleman from 
Virginia, Mr. Garrett for 3 minutes.
    Mr. Garrett. So we have three intelligent people in front 
of this committee, Mr. Chair, or this subcommittee. Along the 
line of questioning I touched on earlier is Sweden recently 
made it a crime to travel to engage in terrorist activity and 
support.
    You talked earlier, I believe Mr. Simcox, about encouraging 
Europeans to, and I quote, which is frightening, ``to spend 
money and to take this seriously.'' If the person with terminal 
lung cancer won't quit smoking it is hard to help them.
    But I would open the floor and we will go Joscelyn, Simcox, 
and Clarke in order. I have got about 2 minutes, to you 
gentlemen to suggest actions that would be appropriately within 
the purview of the Legislative branch of the U.S. Federal 
Government that might further the goal of making our homeland 
safer from returning would-be jihadists, radicals, or anything 
tangentially related thereto?
    We don't have a monopoly on good ideas. What are we not 
doing that you think we might do more of within the purview of 
this body?
    Mr. Joscelyn. I have to review the laws. I am not sure what 
you--I think you hinted at basically something that was not 
being enforced basically on the legal side. I have to look into 
that a little bit more.
    If our current material support for terrorism laws are not 
being fully sort-of leveraged to the extent that they could be, 
that may be--I don't know if that is something that could be 
encouraged from this body or not. But that is something to look 
at.
    I think that there was a sort-of a lag during the Obama 
administration on the full sort-of implementation of material 
support for terrorism laws, and I would look into that is what 
I would say.
    Mr. Garrett. Thank you very much. I will tell you that we 
looked at carrying a bill to do what Sweden did realized we had 
laws on the books that could deal with that, but that they need 
to be uniformly enforced. On the answers to the questions I 
asked you earlier are, yes, we do that sometimes.
    But to the best of my ability to ascertain, no we don't do 
it all the time, and I can't figure out why not.
    Mr. Simcox, what should we be doing differently within the 
purview of the Legislative branch?
    Mr. Simcox. There is a clear need here to take on the 
ideology in a way that I don't think was done over the last 8 
years. There was a lot of talking around the problem.
    I think that taking the European approach that the language 
around CVE, the community-led approach, I understand the 
arguments behind there. I don't think there is any great 
success that it has worked, either in the United States or in 
any European country. So I would suggest we need to re-look at 
that.
    Mr. Garrett. Thank you.
    Dr. Clarke.
    Mr. Clarke. So I think before we jump to enact any kind of 
legislation we need to figure out what works and what doesn't.
    Mr. Garrett. Sure.
    Mr. Clarke. I am referring here specifically to the use of 
social media. So there was a big announcement a couple of weeks 
ago about some of the tech giants, Facebook and others, that 
they are becoming more active in shutting down websites and 
trying to discard jihadist ideology.
    I am just not sure, not because I think it is a bad idea, 
but I genuinely don't know if it is better to shut down the 
websites or to keep them up and running just to monitor them.
    Mr. Garrett. Dr. Clarke, I think you made an amazing point. 
I also think that when we start determining what speech isn't 
acceptable it is a very slippery slope.
    I do wish, however, we would do a better job of 
differentiating how we treat American citizens and foreign 
nationals because the bountiful blessings bestowed upon us by 
our Constitution and Bill of Rights, in my estimation, don't 
extend to those who come here to do us harm from abroad.
    Mr. Clarke. But I see it as a form of open-source 
intelligence----
    Mr. Garrett. Yes, I agree.
    Mr. Clarke [continuing]. And open-source networks.
    Mr. Garrett. Thank you. Thank you.
    Thank you, Mr. Chair.
    Mr. Garrett. The Chair now recognizes the gentlelady from 
Texas, Ms. Jackson Lee for 3 minutes.
    Ms. Jackson Lee. Thank you very much. I want to pursue Dr. 
Clarke's thought of open-source and form of securing, 
soliciting, or obtaining better intelligence. But let me 
indicate that, or at least pose a question, about the 
weaponizing of cyber and that that now adds a different 
component to whether it is a returning fighter, whether it is 
somebody on social media.
    The question I asked you all originally was the assessment 
of how we should focus our resources, FBI, intelligence 
resources, et cetera.
    Let me be very clear. A lot of resources are now being used 
to follow the tracks of the Russian connection, the Russian 
collusion, children of Donald Trump having conversations with 
known affiliates of the Kremlin.
    Having just come back from a former Soviet Bloc country, 
Belarus, there is no doubt that every effort that the Russian 
and Russian affiliates have to follow, track, undermine the 
United States they will do it. Their leader is a KGB.
    So the issue becomes the choice and use of resources. So 
terrorism is defined as somebody else's flower, somebody else's 
terrorism. The question becomes how do we allocate the 
resources?
    Do you consider the need for us to be able to follow both 
streams of potential threat to the United States and using 
heavy resources in both categories following the Russian 
intrusion, the election, collusion with the election, trying to 
recruit or penetrating individuals that are close to the White 
House?
    Then, of course, the idea of a different component, a 
returning fighter or someone, if you will, becoming radicalized 
on the social network?
    Dr. Clarke.
    Mr. Clarke. So let me say I am here as a subject-matter 
expert on terrorism, but to put on my international security 
hat for a second, I don't view these as different things.
    I view--to use kind-of Pentagon parlance the four-plus-one 
threat, so both nation-states and violent non-state actors as 
part of the suite or portfolio of threats that the United 
States faces. So I don't think that we get to choose who we get 
to defend against and who we don't.
    I think we need to take a broad approach to countering all 
of our enemies and we are also moving into places like the gray 
zone and hybrid warfare. So again, it would be nice to pick and 
choose what we could react to, but again, we have got to do it 
all.
    Ms. Jackson Lee. Anyone else?
    Mr. Joscelyn. I will just say this on Russia. They are 
prolific at hybrid warfare and information warfare and cyber 
intrusions and all of these things.
    We absolutely need to devote resources across the board to 
figuring out exactly what they have tried to do here in the 
United States and what they are trying to do to Western 
democracies writ large, because this is a sustained effort by 
Russia. It is not a one-off type of event.
    Mr. Simcox. Very quickly on the counterterrorism side of 
things, there was a period maybe a year, 18 months ago when an 
awful lot of attention was paid to the social media side of 
things.
    I think the social media side of things is important when 
it comes to recruitment, but I still think that the key to this 
is face-to-face individual contacts with people who know each 
other and draw people into terrorist networks that way. On-line 
is important, but it is not the whole ball game.
    Ms. Jackson Lee. Well, let me just finish this point, Mr. 
Chairman. Thank you for your indulgence. I agree with all three 
of you, and I guess that is the point that I am making is that 
we need to have pointed resources, Dr. Clarke, that doesn't 
leave any aspect that may be a threat to the United States.
    I will just cite--I am on the Judiciary Committee--the 
Department of Justice had grants that were going to educate 
local law enforcement to be--not a little bit, but to be 
sophisticated in fettering out these individuals who may be in 
the community or also being able to intervene.
    I think that is an element that is equally important 
because now who is going to catch them at the border's edge on 
our border, and if they are radicalized here we need to have 
local communities being a little bit more informed.
    But my final point is, it is a multi-task situation, and I 
hope that that is something we get out of this task force that 
we need to be looking at a Russia. We need to be looking at 
those who may potentially come from the fight, start the fight 
here, because our idea is to protect the homeland.
    With that, I yield back. Thank you all for your testimony.
    Mr. Gallagher. Thank you. I would love to continue 
questioning, but--well, since Mr. Joscelyn self-identified as a 
nerd I would love to continue nerding out with all of you on 
this topic. But we have kept you here 2 hours longer than we 
anticipated, and we want to be respectful of your time and 
everyone else's time.
    I thank you very much for your flexibility, your patience, 
and for your thoughtful testimony. I know you spend an enormous 
amount of time sitting in tanks and thinking and would love 
nothing more than your thoughts to become legislative reality 
or policy that is implemented.
    I just would submit that you have an opportunity to do just 
that, and I would hope that the three of you will continue to 
work with this task force as we go forward.
    We welcome all of the ideas you have as we draft our report 
and as we continue to study this issue. We are trying to 
recommend concrete things that our Government can do to do a 
better job of keeping terrorists out of this country, a very 
complex topic, one that you have all suggested we are going to 
be dealing with for years to come.
    There are no silver bullet solutions, but we are asking you 
for your best ideas. So please, I just would ask for you to 
continue working with us and the staff here on that.
    I want to thank the Ranking Member for her help and 
support. I want to thank everyone who showed up for this 
important hearing. I want to thank all of the young people that 
attended this. This is an important topic, and I hope you will 
pursue a career in this field. We need you.
    So with that, pursuant to committee Rule VII(D), the 
hearing record will be held open for 10 days. Without 
objection, the task force stands adjourned.
    [Whereupon, at 4:33 p.m., the task force was adjourned.]



                            A P P E N D I X

                              ----------                              

       Questions From Chairman Mike Gallagher for Thomas Joscelyn
    Question 1. You described the process of terrorists returning from 
the battlefield to Europe. How, practically speaking, would terrorists 
find the money to support this travel? Are they still able to find the 
funds in light of the loss of territorial control?
    Answer. Response was not received at the time of publication.
    Question 2. In light of the tighter border security between Turkey 
and the European Union, how would the foreign fighters book flights to 
return to Europe or other locations? How might they go about falsifying 
their identities?
    Answer. Response was not received at the time of publication.
    Question 3. Experts have articulated that as ISIS continues to lose 
territory, some foreign fighters may seek out other terrorist 
organizations. What other conflict zones may these fighters flock to 
and how will these foreign fighters interact with other terrorist 
organizations such as al-Qaeda? Is it likely they will be absorbed by 
these other terror groups or will they remain a distinct organization?
    Answer. Response was not received at the time of publication.
        Questions From Chairman Mike Gallagher for Robin Simcox
    Question 1. As you mentioned in your testimony, entire families 
have moved to Iraq and Syria and many children have been born in the 
caliphate. There is concern that ISIS has been training minors in Iraq 
and Syria to be ``the next generation of foreign terrorist fighters,'' 
and it is likely that those with Western parents will eventually return 
home. How can Europe protect itself against this threat, which may not 
manifest itself for several years?
    Answer. Governments cannot be complacent about the threat that 
radicalized teenagers and pre-teens can pose. Teens or pre-teens 
featured in almost a quarter of plots in Europe between January 2014 
and May 2017.
    As children return from the ``Caliphate'' back to Europe, there is 
unlikely to be a fool-proof approach which European governments will be 
able to adopt to protect themselves. However, some steps can be taken.
    Clearly, intelligence agencies need to be cognizant of the 
potential threat that these children could pose in the short, medium, 
and long term, and work closely with law enforcement when appropriate.
    However, a thorough psychological assessment of these children is 
also necessary, with child protection agencies and social workers 
engaged. Parents should lose custody rights to their children in some 
circumstances.
    Education is also important. Teachers, for example, could be 
trained to be aware of the potential signs of radicalization in their 
students. In the United Kingdom, legislation has been passed--as part 
of the U.K.'s broader Preventing Violent Extremism (PVE) strategy--to 
ensure that teachers are required to be on the lookout for this as part 
of their broader safeguarding duty, much as they would to try and 
ensure children were not becoming involved with gangs, drugs, or being 
sexually exploited.
    Ultimately, however, this is a generational problem. As long as the 
ideology of Islamism exists, there lies the possibility of even 
children being drawn into terrorism and extremism.
    Question 2. The United Kingdom's impending exit from the European 
Union will certainly have enormous ramifications. In the security 
sphere, how do you think Brexit will affect information sharing and 
cooperation between the United Kingdom and the European Union, 
especially with regard to Europol and the Schengen Information System? 
What impact will Brexit have, if any, on the U.S.-U.K. security and 
information-sharing relationship?
    Answer. The United Kingdom has a series of bilateral intelligence-
sharing relationships, which should be unaffected by Brexit. The 
intelligence-sharing relationship with the United States--and the rest 
of the Five Eyes community--was extraordinarily robust before Brexit 
and will continue to be so afterwards.
    Countries within the European Union are aware of the United 
Kingdom's vast intelligence-gathering capacity. It is, therefore, very 
much in the interest of the United Kingdom's friends in the European 
Union for cooperation to continue.
    One example of where cooperation will likely continue is over the 
Schengen Information System (SIS). The United Kingdom currently submits 
information to the SIS. The European Union cutting off the United 
Kingdom's access to it benefits no one and can only harm collective 
European security. Furthermore, a non-E.U. country having some form of 
access to the SIS is not an unprecedented situation (Iceland, for 
example).
    When it comes to Europol, the United Kingdom has never relied on 
this body as much as some other European countries do. Still, the 
influence Britain has to shape European Union bodies such as Europol 
will likely diminish with Brexit.
    However, it is not yet clear whether the United Kingdom has to 
leave Europol entirely. Europol has a variety of organizational 
agreements with countries outside the European Union and the United 
Kingdom could potentially arrange a similar agreement.
    It is also important not to overstate Europol's efficacy. It is a 
place for information sharing on a variety of law enforcement issues 
and focused on improving coordination and cooperation within the 
European Union. Yet Europol has no power of arrest and can only ever be 
as powerful as the nations involved will allow it to be. If they are 
not sharing intelligence with Europol--and that has proven to be the 
case consistently--then Europol's usefulness as an intelligence-sharing 
hub is clearly limited anyway.
    Question 3. The American NCTC brings together the intelligence 
community and law enforcement in a way that allows both branches to 
cooperate in identifying and interdicting terrorists. To what extent 
has Europe had success or faced challenges in facilitating the flow of 
information between law enforcement and intelligence?
    Answer. Ensuring that information is going back and forth between 
intelligence and law enforcement agencies is an on-going challenge for 
many countries in Europe, although European officials state that 
progress has been made, particularly since ISIS' attack in Brussels in 
March 2016.
    According to a BBC analysis, there are occasions when, ``for a 
Belgian police officer to find out what Belgian intelligence knows 
about a threat, he or she sometimes needs to learn it from the U.K. 
police, who learn it from U.K. intelligence, who learn it from Belgian 
intelligence.'' These turf wars doubtless limit the operational 
effectiveness of many European countries' efforts.
    There are a multitude of reasons behind this. If a European spy 
agency is handed intelligence from a foreign country, it may be that it 
is shared under the agreement that this intelligence is then not passed 
on to others. This secrecy is understandable. Revealing intelligence 
haphazardly can lead to the compromising of sources, potentially 
endangering agents in the field and national security more broadly.
    The structure of European countries also presents a problem. 
Belgium, for example, has very localized policing arrangements: There 
are six separate police forces just in Brussels. Another example is 
Germany, whose Federal structure makes it harder to centralize 
intelligence.
    At other times, a country's particular history is a hindrance. 
Conversations with German officials have demonstrated that the country 
remains highly resistant to further integration of police and 
intelligence agencies due to memories of the Gestapo.
    Question 4. What progress has Europe made on the judicial front in 
prosecuting cases of terrorism or material support?
    Answer. European countries have had success with prosecuting 
Islamist terrorists. In the United Kingdom, for example, a Henry 
Jackson Society report has shown that there were 264 convictions for 
Islamism-inspired terrorism offences as a result of arrests taking 
place between 1998 and 2015.
    However, issues remain. European countries have found it easier to 
prosecute those planning attacks than those verbally encouraging or 
inciting such attacks, or voicing support for terrorist groups. This is 
partially because freedom of speech issues come into play, but also 
because legislation may not always be robust enough to be able to 
sustain successful prosecutions.
    Those who have fought in Syria and then return to their countries 
of origin are also not always easy to prosecute. For a multitude of 
reasons, it is very hard for European police forces to travel to Syria 
to collate evidence from a war zone and then use that evidence in a 
civilian court. The reality is that European governments will not be 
able to prosecute anything like all returning fighters from the Syria/
Iraq conflict. This is not something unique to the war in Syria. Over 
the past 25 years, thousands of Europeans have traveled to fight in 
Afghanistan, Bosnia, Iraq, Kashmir, Somalia, and Yemen without 
prosecution.
    Convictions are only part of the solution anyway as long as there 
is a relaxed approach to sentencing and law and order more generally. 
Take the example of Ibrahim el-Bakraoui. As part of an armed robbery he 
was taking part in Brussels, he shot a police officer with a 
Kalashnikov. El-Bakraoui was sentenced to 9 years in prison in August 
2010. However, by 2014, he had been released. This release was 
sanctioned under the condition that he did not leave Belgium for any 
longer than a month at a time. El-Bakraoui ignored this, and in June 
2015, was thwarted in his attempt to enter Syria, being detained in 
Turkey and sent back to Europe. Despite this, el-Bakraoui remained free 
to be part of the ISIS cell that carried out attacks in Brussels in 
March 2016, killing 32 and injuring approximately 300.
       Questions From Chairman Mike Gallagher for Colin P. Clarke
    Question 1. You've described the Islamic State of Iraq and Syria 
(ISIS) as a global group that is regionally anchored and sees its 
members as players in local conflicts. When it comes to Europe, what is 
the ISIS strategy? Are they hiding in place or is the problem less 
severe than that? What about the United States? Are they hoping to 
attack the United States directly or through proxies? What is their 
long-term goal when it comes to both the United States and Europe?
    Answer. In terms of what the ISIS strategy is in Europe, I'd say 
that it is multi-tiered. First, I expect ISIS to continue to use its 
propaganda to attempt to radicalize people living in Europe in hopes of 
convincing them to launch terrorist attacks, what we might call the 
classic ``lone-wolf'' or inspired terrorist. Second, ISIS will attempt 
to make direct contact with individuals through the internet in what 
many have called the ``virtual planning model'' of terrorist attacks, 
in which ISIS members direct the individuals through encrypted 
applications and help them plan each step of the attack. Third, it is 
likely that ISIS members are in Europe, either with or without direct 
instructions, and these members or cells could conduct attacks similar 
in style to the November 2015 attacks in Paris. Fourth, and finally, 
ISIS will likely continue to send fighters from the Middle East to try 
to surreptitiously infiltrate Europe to conduct attacks.
    The situation for the United States is different, because the 
United States is insulated by two oceans and thus safer as a matter of 
pure geography. The United States also benefits from more-robust 
defenses, including superior security and intelligence services and far 
fewer overall targets. Furthermore, it appears that U.S. policing, 
intelligence, and border officials have been able to prevent ISIS 
members from arriving in the United States, although there is no way to 
be certain of this. ISIS will likely focus its attempts on the first 
two options listed above (lone-wolf and virtual planning model) but 
might also attempt something similar to the recent plot in Australia, 
in which ISIS mailed explosives to terrorists already living in the 
country. There is a lower probability (albeit not a negligible one) 
that ISIS will attempt to send fighters directly to the United States 
via air travel from Europe or the Middle East, or first to Canada and 
Mexico or points south and then over the border into the United States.
    ISIS' long-term goal when it comes to the United States and Europe 
is to continue sowing terror and trying to show U.S. and European 
citizens that their governments are incapable of protecting them. Most 
experts assess that ISIS would ideally like to conduct an attack in a 
U.S. or European city using chemical weapons. ISIS, like al-Qaeda, also 
remains fixated on attacking aviation, as evidenced by the recent plot 
in Australia.
    Question 2. The recent pace of terrorist plots and attacks in 
Europe, carried out by both home-grown extremists and foreign fighter 
returnees, has been staggering. Since the rise of ISIS, the West has 
experience several ``lone-wolf'' attacks, where the attackers were 
seemingly inspired by ISIS' ideology or carried the attack out in the 
name of ISIS. Is it accurate to describe these attacks as ``lone 
wolves,'' or after closer examination, do ISIS members usually play 
some role in facilitating the attacks? How should the West address the 
threat of ISIS operatives exploiting ungoverned spaces to continue 
directly or indirectly executing and inspiring attacks?
    Answer. ISIS operatives do not follow one simple model in planning 
terrorist attacks; instead, the operatives hedge their bets to achieve 
the highest rate of success in conducting an attack. There have indeed 
been true lone wolves who have merely been inspired by Salafi-jihadist 
ideology--the ISIS and al-Qaeda ideology that seeks to emulate the 
presumed practices of the earliest generation of Muslims and that 
believes in violent struggle against non-Muslims and apostates as an 
important religious duty. But ISIS would prefer to play a more direct 
role in these attacks, because virtual planner-style attacks or ISIS-
directed attacks involving trained militants dispatched to attack a 
target typically result in higher lethality rates.
    With respect to ungoverned spaces, I think the term itself is 
somewhat misleading. ISIS prefers ``alternatively governed'' spaces, 
where the government in place is tribal, clan-based, or generally anti-
Western and that either is overtly tolerant of extremists operating 
from its soil or lacks the capacity to do anything about it. In the 
West, I'm very concerned about places like Molenbeek, Belgium, and the 
banlieues of France, the ex-urban, depressed suburbs that are homes to 
many immigrants and that have seemingly become incubators of extremism 
and given rise to hundreds of jihadists determined to attack the West. 
In these cases, Western governments need to devise a plan to root out 
extremists, which is not only a multi-generational effort but one 
comprising economic, political, social, cultural, religious, and 
security dimensions. Finally, it will be crucial to monitor social 
media and on-line activity to ensure that ISIS does not find safe haven 
in the virtual space.

                                 <all>
</pre></body></html>
